Office of Inspector General
Small Business Administration




        Semiannual Report to Congress
                      Spring 2014




         October 1, 2013-March 31, 2014
                                    Small Business Administration
                            Office of Inspector General
                                         Washington, DC 20416


I am pleased to present the U.S. Small Business Administration (SBA or Agency) Office of Inspector Gen-
eral’s (OIG) Spring 2014 Semiannual Report to Congress. The report provides a summary of the OIG’s ac-
tivities from October 1, 2013—March 31, 2014. The OIG continues to focus on the most critical risks facing
the SBA. Our resources are directed at key SBA programs and operations, to include financial assistance,
government contracting and business development, financial management and information technology,
disaster assistance, Agency management challenges, and security operations.

During this reporting period, the OIG issued 9 reports containing 60 recommendations for improving SBA
operations and reducing fraud and unnecessary losses in the Agency’s programs. In addition, OIG investi-
gations resulted in 52 indictments and 40 convictions, and 20 recommendations for suspension and/or
debarment. Overall, the OIG achieved monetary recoveries and savings of $124,190,903 from recommen-
dations that funds be put to better use agreed to by management; disallowed costs agreed to by manage-
ment; court-ordered and other investigative recoveries, fines, and forfeitures; and loans or contracts not
made as a result of investigations and name checks.

In accordance with the Reports Consolidation Act of 2000, the OIG released its Report on the Most Seri-
ous Management and Performance Challenges Facing the Small Business Administration in FY 2014 in Oc-
tober 2013. This report represents our current assessment of Agency programs and/or activities that pose
significant risks, including those that are particularly vulnerable to fraud, waste, error, mismanagement, or
inefficiencies. Our report is based on specific OIG, Government Accountability Office, and other official
reports, as well as our general knowledge of SBA’s programs and operations.

We found the Agency made improvements across six of the challenges in FY 2013. For one recommended
action under management challenge #2—Weaknesses in Information Systems Security Controls Pose Sig-
nificant Risks to the Agency, the lack of corrective action resulted in a reduction in status—from Orange
(i.e., Limited Progress) to Red (i.e., No Progress). Overall, the effort made by Agency staff and leadership
throughout FY 2013 on most of the recommended actions demonstrated commitment to improving pro-
grams and operations.

I would like to thank the OIG’s employees for their outstanding efforts to promote economy, efficiency,
effectiveness, and integrity in SBA programs and operations. We welcome Administrator Maria Contreras
-Sweet to the SBA and look forward to working with her and SBA’s management to address the issues and
challenges facing the Agency.




        /s/
Peggy E. Gustafson
Inspector General
This page intentionally blank.
Table of Contents


Overview of the SBA and the OIG ........................................................................................ ...1

Management Challenges ...................................................................................................... ...2

Small Business Access to Capital ......................................................................................... ...3

Disaster Loan Program ........................................................................................................... 10

Procurement Assistance ........................................................................................................ .13

Agency Management ............................................................................................................. 20

Other Significant OIG Activities ........................................................................................... 22

Statistical Highlights: October 1, 2013-March 31, 2014 ....................................................... .25

Appendix I: OIG Reports Issued October 1, 2013-March 31, 2014 ....................................... 28

Appendix II: OIG Reports with Questioned Costs ............................................................. 30

Appendix III: OIG Reports with Recommendations that Funds Be Put to Better Use ..... 31

Appendix IV: OIG Reports with Non-Monetary Recommendations ................................ 32

Appendix V: Reports from Prior Periods with Overdue Management Decisions .............33

Appendix VI: Reports Without Final Action as of March 31, 2014 ..................................... 34

Appendix VII: Summary of Significant Recommendations from Prior Reporting
Periods Without Final Action of as March 31, 2014 ............................................................ 49
Appendix VIII: Summary of Significant Recommendations
October 1, 2013-March 31, 2014……………………………………………………….………………………………..56
Appendix IX: Cosponsored and Other Activities October 1, 2013-March 31, 2014 ............ 60
Appendix X: Legal Actions Summary .................................................................................. 69
Appendix XI: Results of External Peer Reviews .................................................................. 76
Appendix XII: Office of Inspector General Organization .................................................. 77
This page intentionally blank.
Overview

The Small Business Administration                          The Office of Inspector General
The mission of the Small Business Administration           Pursuant to the Inspector General Act of 1978 (the IG
(SBA or the Agency) under the Small Business Act, as       Act), as amended, the Office of Inspector General
amended, is to maintain and strengthen the Nation’s        (OIG) provides independent, objective oversight to
economy by enabling the establishment and vitality         improve the integrity, accountability, and perfor-
of small businesses and assisting in the economic          mance of the SBA and its programs for the benefit of
recovery of communities after disasters. To meet its       the American people. While SBA’s programs are es-
mission, the SBA is organized around four key func-        sential to strengthening America’s economy, the
tional areas. These areas include financial assistance,    Agency faces a number of challenges in carrying out
contracting assistance, technical assistance (e.g., en-    its mission. Challenges include fraudulent schemes
trepreneurial development), and disaster assistance.       affecting SBA programs, significant losses from de-
The Agency also represents small businesses through        faulted loans, procurement flaws that allow large
an independent advocate and an ombudsman.                  firms to obtain small business awards, excessive im-
                                                           proper payments, and outdated legacy information
Through the four functional areas, the SBA provides        systems.
small businesses the tools they need to strengthen
our economy, drive American innovation and in-             The OIG plays a critical role in addressing these and
crease our global competitiveness. In order to accom-      other challenges by conducting audits, evaluations,
plish these goals, the SBA has developed a five-year       and investigations related to SBA programs and oper-
strategic plan. The Agency’s Fiscal Years 2014-2018        ations. These activities help to identify wasteful ex-
Strategic Plan has three overarching goals:                penditures, weaknesses in program management,
                                                           and potential fraud and other wrongdoing. Lastly,
         Grow businesses and create jobs                  through these reviews, the OIG recommends actions
         Serve as the voice for small business            to the Agency to better deter and detect waste, fraud,
         Build an SBA that meets the needs of to-         abuse, and inefficiencies in SBA programs and opera-
          day’s and tomorrow’s small businesses            tions to improve overall service to small businesses
                                                           and taxpayers.
The SBA has also identified its Priority Goals for
Fiscal Years 2014-2015, which include: expanding           The OIG’s activities also help to ensure that SBA em-
access to capital, maximizing small business partici-      ployees, loan applicants, and program participants
pation in federal government contracting and reduce        possess a high level of integrity. This is critical to the
participation by ineligible firms, expanding access to     proper administration of the SBA’s programs because
export financing, and increasing the return rate for       it helps ensure that SBA resources are used by those
disaster survivor loan applications by 10 percent          who deserve and need them the most.
points.
                                                           Appendix I contains information regarding audit and
The SBA’s headquarters office is located in Washing-       other reports issued by the OIG during this reporting
ton, D.C. with staff in 10 regional offices, 68 district   period. Appendix X contains summaries of investiga-
offices, their corresponding branch offices, and           tive actions. Copies of OIG reports and other work
4 disaster field offices to deliver business products      products are available on the OIG’s website at
and services. There are also six government con-           http://www.sba.gov/office-of-inspector-general.
tracting area offices. The SBA also maintains a vast
network of resource partners in all 50 states, the Dis-
                                                                                      ***
trict of Columbia, Puerto Rico, American Samoa, the
U.S. Virgin Islands, and Guam.

                          ***
Management Challenges

Each year the OIG identifies the most serious man-            For each management challenge, the OIG provides
agement and performance challenges facing the SBA.            the Agency with recommended remedial actions to-
In accordance with the Reports Consolidation Act of           gether with an assessment of Agency progress on
2000 and Office of Management and Budget (OMB)                each recommended action during the preceding fiscal
Circular A-136, the SBA reports this information in its       year. If sufficient progress occurs during the previous
Agency Financial Report (AFR). The management                 fiscal year, the OIG awards a higher color score and
challenges represent areas that the OIG considers             the arrow indicator shows upward movement.
particularly vulnerable to fraud, waste, abuse, or mis-
management, or which otherwise pose significant risk          On October 31, 2013, the OIG issued its Report on the
to the Agency, its operations, or its credibility. Each       Most Serious Management and Performance Challeng-
management challenge generally has originated from            es Facing the SBA in FY 2014. The following table pro-
one or more reports issued by the OIG or the Govern-          vides a summary of those challenges:
ment Accountability Office (GAO).




Number                        Challenge                       Green    Yellow    Orange     Red      Up #    Down#

    1      Small Business Contracting                                     2                           2

    2      IT Security                                           1        2         1        1        1         1

    3      Human Capital                                         1        3                           3

    4      Loan Guaranty Purchase                                         1

    5      Lender Oversight                                      4                  2                 2

    6      8(a) Business Development Program                              1         1        1

    7      Loan Agent Fraud                                               1

    8      Loan Management and Accounting System                          1         3                 3

    9      Improper Payments– 7(a) Program                       1        5                           4

   10      Improper Payments-Disaster Loan Program                        1

   11      Acquisition Management                                                   5

                              TOTAL                              7        17       12        2        15        1




                                                          2
Small Business Access to Capital

The SBA has a financial assistance portfolio of guar-          Various Techniques Used to Defraud Loan Pro-
anteed and direct loans over $95 billion. The Agency’s         grams
largest lending program, the Section 7(a) Loan Guar-
anty Program, is the SBA’s principal vehicle for               Criminals use a wide variety of methods to fraudu-
providing small businesses with access to credit that          lently obtain—or induce others to obtain—SBA-
cannot be obtained elsewhere. Proceeds from a 7(a)             guaranteed loans. These include submitting fraudu-
loan may be used to establish a new business or to             lent documents, making fictitious asset claims, ma-
assist in the acquisition, operation, or expansion of an       nipulating property values, using loan proceeds con-
existing business. This program relies on numerous             trary to the terms of the loans, and failing to disclose
outside parties (e.g., borrowers, loan agents, and lend-       debts or prior criminal records. Consequently, there
ers) to complete loan transactions, with the majority          is a greater chance of financial loss to the Agency and
of loans being made by lenders to whom the SBA has             its lenders. Some of these methods are described
delegated loan-making authority. Additionally, the             below.
SBA has centralized many loan functions and reduced
the number of staff performing these functions, plac-           A former bank executive in Illinois was indicted
ing more responsibility on, and giving greater inde-               for bank fraud, and a seller of multiple gas sta-
pendence to, its lenders. The OIG continues to iden-               tions was indicted for bank fraud, bribing a bank
tify weaknesses in the SBA’s lender oversight process-             official, and filing a false tax return. The seller’s
es.                                                                business partner and a former accountant were
                                                                   each charged with bank fraud. The indictment
The SBA’s Section 504 Loan Program provides small                  also seeks forfeitures of over $10 million in pro-
businesses with long-term, fixed-rate financing for the            ceeds from the scheme. The bank executive and
purchase of land, buildings, machinery, and other                  the seller allegedly worked to get unqualified SBA
fixed assets. Local economic development organiza-                 borrowers approved to purchase gas stations that
tions approved by the SBA are known as Certified                   seller would “flip” with his business partner. The
Development Companies (CDCs). The CDCs package,                    bank executive and seller also allegedly utilized
close, and service these loans, which are funded                   the accountant to create false tax returns needed
                                                                   for the loan files. The seller and his partner alleg-
through a mix of funds from private sector lenders,
proceeds from the sale of SBA-guaranteed debentures,               edly provided the bank executive “kickbacks,”
                                                                   with a cash value exceeding $150,000 in return for
and borrower equity investment.
                                                                   his help in getting the loans approved. Moreo-
                                                                   ver, the business partner’s brother was charged
The Microloan Program provides small ($50,000 or
                                                                   with failing to file a tax return. The bank paid
less), short-term loans and technical assistance to
                                                                   loan commissions to the brother because the
small business concerns, as well as non-profit child-
                                                                   executive listed him as a loan broker on multiple
care centers, through SBA-funded intermediary lend-
                                                                   loans, even though the brother performed no
ers. These lenders are non-profit, community-based
                                                                   work. After receiving $340,000 for doing noth-
organizations with experience in lending and provid-
                                                                   ing, the brother then failed to claim that income
ing management and technical assistance to business-
                                                                   on his taxes. This is a joint investigation with the
es.
                                                                   Federal Bureau of Investigation (FBI), Internal
                                                                   Revenue Service Criminal Investigation (IRS CI),
Through the Small Business Investment Company
                                                                   and the Federal Deposit Insurance Corporation
(SBIC) Program, the SBA licenses and makes funds
                                                                   (FDIC) OIG.
available to venture capitalists known as SBICs. The
SBICs lend or otherwise invest in small businesses
using participating securities made up of contribu-             A Chicago-area real estate attorney was indicted
tions from SBA and private investors or funds gener-               for wire fraud in connection with two residential
ated through the sale of SBA-guaranteed debentures.                mortgage-fraud schemes having a combined val-
                                                                   ue of $492,303. The investigation revealed that



                                                           3
   the attorney conspired with the seller and a buy-              cash reserves, fixed assets, accounts receivable,
   er to falsify the buyer’s down payment. He pre-                and inventory, while also showing reduced exist-
   pared a bogus will for a man already deceased,                 ing liabilities. The man submitted the false state-
   which purported to leave a $200,000 inheritance                ments to a bank on a regular basis. The bank
   to the man’s son, the buyer. He also signed the                relied upon the false documents in assessing the
   will as the father’s attorney and as the executor              extension of credit and other services to the busi-
   of the father’s estate. The attorney, who repre-               ness, including the approval of a $750,000 SBA-
   sented the buyer in these real estate transactions,            guaranteed loan. This is a joint investigation with
   then forwarded these documents to the lender as                the FBI.
   evidence of the source of the buyer’s down pay-
   ments. This case was referred by the OIG’s Early            A California man pleaded guilty to making false
   Fraud Detection Working Group. It is part of an                statements to a bank and the government. The
   ongoing investigation of loan agent fraud in con-              investigation revealed that the man had previous-
   nection with multiple residential and commer-                  ly obtained three loans from a bank and was in
   cial loan fraud schemes, including a $1.76 million             default for approximately $700,000 when he ob-
   SBA loan for the purchase of a gasoline station                tained two SBA Section 7(a) loans and one SBA
   and convenience store. This is a joint investiga-              Section 504 loan. All of his SBA loans defaulted
   tion with the U.S. Postal Inspection Service                   early and left losses to the banks and the SBA of
   (USPIS).                                                       nearly $1,839,360. This joint investigation with
                                                                  the FBI was initiated on a referral from the OIG’s
 A California man was indicted for making false                  Early Fraud Detection Working Group.
   statements in connection with loan and credit
   applications. The man allegedly made false
                                                              False Equity Injection Increases Business Loan
   statements and submitted false documents to
                                                              Risk
   obtain two SBA loans totaling $400,000 from two
   different banks. He also allegedly committed               In many circumstances, lenders require borrowers to
   fraud to obtain a $150,000 line of credit and a            infuse personal funds into the business, commonly
   $100,000 term loan from a third bank. The inves-           referred to as an equity injection. If he or she person-
   tigation revealed that the man allegedly used one          ally has something at risk in the business, that person
   Social Security nmber to apply for SBA loans,              is less likely to default on a loan. When lenders re-
   bank credit cards, and other financial assistance.         quire an injection of such money into projects fi-
   However, prior to applying for the SBA loans, he           nanced by guaranteed loans, some borrowers try to
   had allegedly filed bankruptcy by using a differ-          avoid this obligation by falsifying the amount or
   ent Social Security number. He also allegedly              source of this capital, as shown by the following exam-
   failed to respond truthfully on his SBA loan ap-           ples.
   plications about his criminal history. The inves-
   tigation also uncovered evidence of misuse of an            A Texas husband and wife were each sentenced to
   Internal Revenue Stamp, bankruptcy fraud, and                  12 months and one day in prison followed by
   Social Security fraud. This is a joint investigation           three years supervised release after having pled
   with the Treasury Inspector General for Tax Ad-                guilty to conspiracy. They were also ordered to
   ministration and the FBI.                                      pay $281,672 in joint restitution, which was the
                                                                  full outstanding balance of the SBA loan. The
 A Wisconsin man pleaded guilty to making false
                                                                  couple paid an additional $150,000 in restitution
   statements on a loan and credit application. The
                                                                  prior to sentencing. The investigation revealed
   investigation determined that from December
                                                                  that the couple applied for and received a
   2006 until July 2010, this owner and chief execu-
                                                                  $420,000 SBA-guaranteed loan to purchase a con-
   tive officer of a business provided financial state-
                                                                  venience store. The husband purported to the
   ments that falsely represented the business’s
                                                                  lender that most of the cash injection was coming
   profitability. He did so by showing increased
                                                                  from the sale of a previously owned convenience


                                                          4
   store. In reality, the couple had depleted the               construction bids prior to their submission to
   majority of those funds prior to closing on the              the SBA. Finally, one contractor alleged that the
   loan. The wife secured lines of credit from two              man forged his signature on draws submitted to
   banks by using different company names, from                 the lender. This claim was later supported by a
   which at least $91,269 of the $146,359 cash injec-           notarized affidavit from the contractor. This
   tion was derived. When dealing with the SBA                  joint investigation with the FBI is based on a
   lender, the couple did not disclose these addi-              referral from SBA’s Little Rock Commercial
   tional debts, and they certified the accuracy of             Loan Servicing Center.
   false personal and business financial statements.
   They later filed for bankruptcy and listed the
                                                            Legal Actions Continue in $100 Million Scheme
   above referenced lines of credit as part of their
   $456,806 in unsecured debts.                             Over $100 million in losses have resulted thus far
                                                            from a scheme to obtain, fraudulently, SBA-
 A former Washington State bank loan officer               guaranteed loans. The scheme includes a loan bro-
   pled guilty to bank fraud. This investigation            kerage company, two brothers who owned the com-
   was based upon a referral from a bank, which             pany, a former owner of a Maryland title company,
   reported potential fraud on a $1,853,000 SBA-            and an attorney who owns a Virginia title company.
   guaranteed loan made by the loan officer to a            The conspirators encouraged prospective borrowers
   business. The investigation revealed that the            to apply for Section 7(a) business loans. Once bor-
   man, who was also an owner of the business,              rowers applied, the conspirators submitted loan ap-
   submitted false information in order for the             plications and supporting documentation containing
   bank to approve and disburse the SBA loan. He            fraudulent personal financial information to loan
   used false personal information to hide his own-         originators and underwriters on behalf of their cli-
   ership in the business, used a real estate agent         ents, thereby falsely enhancing the creditworthiness
   to amend the business’s appraisal from $1.7 mil-         of the borrowers and their businesses. This is a joint
   lion to $2.1 million in order to gain additional         investigation with the FBI and the USPIS. The fol-
   funding, and falsified the required $385,000 eq-         lowing related actions occurred during this report-
   uity injection. This is a joint investigation with       ing period.
   the FDIC OIG.
                                                             A Maryland man who was an SBA borrower was
                                                                indicted for conspiracy to commit bank fraud,
 An Alabama man pled guilty to wire fraud and                  bank fraud, aiding and abetting, and criminal
   bank fraud. He had obtained a Section 504 loan
                                                                forfeiture. He and others allegedly encouraged
   for $1,760,000 for his grocery store on the condi-
                                                                prospective borrowers to use the services of the
   tion that he pay at least $736,920 in cash injec-
                                                                loan brokerage firm to apply for 7(a) business
   tion. After making only one payment, he de-
                                                                loans. He and others are alleged to have falsely
   faulted on the loan. To help prove that he had
                                                                represented the ownership of the small busi-
   paid his cash injection, he submitted copies of
                                                                nesses and the amounts of the equity injections.
   six cancelled checks totaling $564,745. When
   these copies were compared with copies of the             A deferred prosecution agreement (DPA) was
   checks obtained from his financial institution,              signed for the owner of the Maryland title com-
   the investigation discovered that checks with                pany. The DPA requires that the owner pay a
   the same check numbers had a combined face                   $75,000 monetary penalty to the United States
   value of approximately $16,700. This amount                  and agree to refrain from conducting any resi-
   was far less than the $564,745 reported to the               dential or commercial loan closings during the
   SBA, and the checks were payable to different                agreement’s pendency.
   entities than those identified on the checks sup-
   plied to the SBA. Not only was the evidence of
   cash injection fraudulent, but the man inflated


                                                        5
Missouri Bank Fraud Pleas and Sentencings                         were approximately $628,000 when the actual
                                                                  figure was approximately $310,000. After receiv-
All 18 individuals involved in a complex conspiracy               ing the SBA loan, the company continued to
to defraud a Missouri bank and the SBA have pled                  struggle and was 85 days past due within a few
guilty to various charges, with some having been                  months. To inject cash into the firm, the bank’s
sentenced. This is a joint investigation with the FBI.            executive vice president and others originated a
The following actions occurred during the reporting               fraudulent loan to another person. The pro-
period.                                                           ceeds were disbursed to other defendants in this
                                                                  investigation, including the alleged operator of
 The president of a construction company was                     the company.
    sentenced to one year of probation after having
    pled guilty to aiding and abetting the misappli-
                                                               The owner of a consulting business pled guilty
    cation of bank funds. He had signed a $300,105
                                                                  to conspiracy to defraud the United States. He
    promissory note for a line of credit from the
                                                                  conspired with the previously mentioned bank
    bank stating that the purpose of the credit was
                                                                  executive vice president to originate nominee
    to provide business funds for his firm. On that
                                                                  loans to provide funding for struggling firms. In
    same day, he aided and abetted a former bank
                                                                  November 2006, and prior to the execution of a
    executive vice-president and others by obtaining
                                                                  promissory note, the executive vice president
    a $262,647 draw on the line of credit and caus-
                                                                  initiated a $125,000 deposit into the consulting
    ing a wire transfer of the same amount to a sec-
                                                                  business owner’s account at the bank, which
    ond bank to benefit parties connected to the
                                                                  cured an overdraft of $21,508. The remaining
    first bank.
                                                                  portion was disbursed to make delinquent loan
                                                                  payments for the consulting firm and another
 The former owner of a saloon pled guilty to aid-                business, and was distributed to other defend-
    ing and abetting the misapplication of bank                   ants. Approximately two weeks later, the bank
    funds. He aided and abetted the former execu-                 official originated and executed the paperwork
    tive vice president of the bank in connection                 for the $125,000 loan. The consulting business
    with four SBA loans that the banker made to the               owner signed a third person’s name to the
    owner and his daughter. Although the loans’                   promissory note. That person had consented to
    stated purpose was for working capital, the                   the use of his name and credit to obtain the
    funds were used to pay the owner’s delinquent                 loan. Although the stated purpose of the loan
    debt at the bank. The funds were also used to                 was to pay business expenses and a real estate
    conceal the issuance of unfunded cashier’s                    deposit, the loan was made to benefit others.
    checks at the bank and to benefit unrelated
    businesses and persons who held accounts at
                                                               The former owner of an appliance business was
    the bank.
                                                                  sentenced to 24 months of probation. He had
                                                                  aided and abetted the above executive vice pres-
 The former executive vice president of the bank                 ident of a bank by diverting loan proceeds from
    pled guilty to conspiracy to defraud the United               his business to a restaurant owned by his
    States. He had submitted false information to                 daughter.
    the SBA in connection with a defaulted $1.6 mil-
    lion SBA-guaranteed loan to a borrower doing
                                                               The former president of a wireless firm pled
    business as a Missouri firm. The borrower was
                                                                  guilty to using a false document in connection
    identified as the operator of the company when
                                                                  with a defaulted $695,000 SBA loan to his busi-
    he had actually moved to North Carolina to
                                                                  ness. He had applied for an SBA guaranteed
    work for a restaurant chain in October 2005 and
                                                                  loan by stating that seven individuals owned
    no longer participated in the day-to-day man-
                                                                  shares of his firm, in the aggregate of 20 percent
    agement of the business. Moreover, income
                                                                  of the company’s total value, when in reality,
    figures for 2005 stated that the firm’s gross sales

                                                          6
    none of these individuals owned any interest in           President of Michigan Construction Firm Pleads
    or portion of his business. The SBA loan de-              Guilty
    faulted within a few months after approval.
                                                              The president of a Michigan construction and man-
                                                              agement firm pled guilty to misprision of a felony.
 A former SBA branch manager pled guilty by                  He had been aware that others made false state-
    entering a nolo contendere plea for submitting a          ments on an application to obtain a $1.1 million SBA
    false document to the SBA. He had falsely re-             loan for an auto service center from a now defunct
    ported on his confidential financial disclosure           lender. The loan defaulted and was charged off for
    report that he had no reportable liabilities and          $789,186. He knew of the false statements on the
    no reportable outside positions when, in fact, he         loan application but remained in his native country,
    was the managing member of a Texas custard                thus concealing the information from U.S. authori-
    stand. He had also obtained an $80,000 SBA                ties. This is a joint investigation with the U.S. Secret
    loan for this business. The manager had been              Service and the Department of Homeland Security
    previously indicted for bank fraud, making false          (DHS), Immigration and Customs Enforcement.
    statements, money laundering, and conspiracy.
                                                              Microloan Fraud Results in Guilty Plea
 The owner of a business was sentenced to three
    years of probation and was ordered to pay                 A Florida firm’s director pled guilty to committing
    $2,000 in restitution after having been charged           wire fraud and aggravated identity theft. As a local
    with aiding and abetting the misapplication of            intermediary in the SBA Microloan program, the
    bank funds. He had allowed a former official at           firm received large loans from the Agency and in
    a Missouri bank to use him and his business               turn, made smaller loans to small businesses. The
    bank account as a conduit to transfer funds               director provided escrow agreements with forged
    from one fraudulent loan to pay off the remain-           signatures and false bank statements to the SBA to
    ing balance of a separate fraudulent loan. He             secure a $200,000 loan and a $550,000 loan to the
    kept $2,000 of the funds for personal use.                firm, of which only $192,500 of the second loan was
                                                              disbursed. To induce the SBA to disburse the ap-
                                                              proved loans further, the director submitted false
Large Civil Settlement in Loan Fraud Case                     information indicating that the firm had made 21
                                                              local small loans using the Agency’s loan proceeds.
A $1,125,000 civil settlement agreement was reached           In reality, the firm only provided a total of $25,000 to
with a Texas firm that submitted or caused to be              two businesses, one of which the director owned,
submitted false information relating to SBA 7(a)              while her boyfriend controlled the other. She also
loans. The firm routinely packaged loan applications          submitted false reconciliation statements and bank
and other materials for individuals seeking to pur-           statements to the SBA. The investigation deter-
chase its lube centers and dry cleaning stores. It was        mined that the SBA disbursed $392,500 to the firm,
asserted that the firm, acting through an employee,           of which about $362,000 was transferred to the bank
fraudulently induced the SBA to guarantee loans for           account of another company controlled by the direc-
purchasers by representing to lenders and the SBA             tor. She and the second firm used the SBA loan pro-
that the purchasers had provided the required cash            ceeds to purchase an apartment building. This is a
injection payment when they had not. For each loan            joint investigation with the IRS CI and the Depart-
closed, the employee received from one to three per-          ment of Justice (DOJ).
cent of the loan value. She pled guilty to conspiracy
to commit bank fraud and was sentenced to 36
months in prison, 36 months of supervised release,
and restitution of $8,581,970. This is a joint investi-
gation with the FBI.




                                                          7
Multiple Parties Involved in California Loan                 tion, the bank allegedly was misled into believing
Schemes                                                      that the phony owner made a $2.1 million down pay-
                                                             ment to purchase the two gas stations, even though
The president of a California gas station and car
                                                             there was no down payment. After the loans were
wash pled guilty to bank fraud. Her daughter pled
                                                             funded, the first man received $250,000. Finally, the
guilty to wire fraud. The president previously had
                                                             father and daughter allegedly skimmed large por-
been indicted for mail fraud, bank fraud, false state-
                                                             tions of cash from the business for personal expens-
ments, making false statements in a loan application,
                                                             es, including payments to criminal defense attorneys
making false statements to obtain an SBA loan, and
                                                             who were representing them in the first case. This is
aiding and abetting. The indictment alleged that the
                                                             a joint investigation with the FBI.
president, her daughter, her husband, and another
man executed a scheme to defraud the SBA, a bank,            Louisiana Man Illegally Sells Collateral
and a financing corporation by making false state-
ments to obtain loans for the business.                      A Louisiana man pled guilty to wire fraud and mak-
                                                             ing a false statement to the SBA. According to a
The investigation found that the president and her           referral from the SBA National Guaranty Purchase
daughter made false statements on an application             Center, the man’s business made an offer in compro-
for an SBA guaranteed loan from the bank. They               mise of a $10,000 lump sum payment to satisfy a
falsely reported that neither they nor their business-       $511,400 balance on an SBA loan. He allegedly sold
es were involved in any bankruptcies or pending              the collateral business personal property without the
lawsuits and did not have a controlling interest in          lender’s knowledge. Moreover, the sale of the busi-
other businesses. The four individuals also made             ness and property may not have been arms-length
material false statements to obtain another business         transactions, and he allegedly falsified personal fi-
loan for the gas station from the financing corpora-         nancial statements. The investigation determined
tion. The loss to the financing corporation was ap-          that he misrepresented the value of the collateral for
proximately $1.65 million and the loss to the bank           this loan and then sold it to another furniture store
and the SBA was approximately $1.45 million. Of the          he owned. The man also falsely represented that he
$1.45 million, the SBA-guaranteed portion was ap-            sold the second store and provided false financial
proximately $931,368.                                        information to the lender and the SBA when submit-
                                                             ting the offer in compromise.
A subsequent superseding indictment charged that,
                                                                                      ***
while the original case was pending trial, the hus-
band, the daughter, and others engaged in a new              Improvement is Needed to Ensure Effective Quality
scheme to defraud yet another bank and the SBA.              Control at Loan Operation Centers
They allegedly paid a former attorney with a good
credit history $100,000 plus $3,000 per month to             This report presented the results of the OIG’s review
pose as the owner of a petroleum business and apply          of quality control at the SBA’s Loan Operations Cen-
for $4.5 million in SBA loans to purchase two South-         ters. The evaluation was designed to determine the
ern California gas stations.                                 status of the Quality Control Program and whether
                                                             all elements of the program were being completed.
The real owners of the petroleum business would be
two men, one of whom would later plead guilty to             The OIG determined that while the SBA had made
wire fraud. The second man allegedly did not want            significant progress in implementing a quality con-
the lender to discover his poor credit standing and a        trol program for its loan centers, quality control ac-
previous indictment. The parties allegedly agreed            tivities were not being performed as required. The
that, after the loans to purchase the gas stations           OIG determined that Centers omitted required qual-
were completed, ownership of the firm would be               ity control reviews of significant functions. Addition-
transferred to the man with the poor credit. In addi-        ally, the OIG determined that the SBA discontinued
                                                             regularly scheduled quality reviews at the National


                                                         8
Guaranty Purchase Center during FY 2012 to focus
on reviews required by the Improper Payments Elim-
ination and Recovery Act (IPERA) of 2010. Further,
the OIG determined that corrective actions on defi-
ciencies identified by the Center quality control
teams were not appropriately tracked until resolu-
tion, as required. Finally, the OIG determined that
the SBA’s quality assurance program, responsible for
ensuring that quality control activities at loan opera-
tion centers are working as intended, had not been
established.

The OIG recommended three actions that will help
strengthen the SBA’s quality control and assurance
activities at its loan operation centers. The Agency
generally agreed with the OIG’s findings and recom-
mendations, and has recently taken steps to address
long-standing deficiencies within the existing quality
control program.

Purchase Reviews Allowed $3.1 Million in Im-
proper Payments on 7(a) Recovery Act Loans

This report presented the results of the OIG’s review
of the SBA’s purchase review process for 7(a) Recov-
ery Act Loans. This report is the second in a series
resulting from the OIG’s audit of purchased 7(a)
Recovery Act loans and presents the results of an
audit of the SBA purchase reviews on nine additional
7(a) Recovery Act Loans. The OIG found that three 7
(a) Recovery Act loans purchased by the SBA were
not originated and closed in accordance with SBA
rules and regulations. The deficiencies included
loans approved and disbursed by lenders with ques-
tionable eligibility, inadequate assurance of repay-
ment ability, and equity injection issues. The three
loans had inappropriate or unsupported disburse-
ments of approximately $3.1 million. The OIG rec-
ommended that the SBA seek recovery of $3.1 million
from the three lenders associated with these loans
on the guaranties paid by the SBA for the loans (less
any amounts received from liquidation). The SBA
agreed with the OIG’s recommendations and each
case is progressing through the Office of Capital Ac-
cess’ (OCA) Denial Review Process, with appropriate
action to be taken upon final resolution.
                         ***



                                                          9
Disaster Loan Program

The Disaster Loan Program plays a vital role in the            The president and owner of an Arkansas bottled
aftermath of disasters by providing long-term,                    water firm was indicted in connection with a
low-interest loans to affected homeowners, renters,               scheme to fraudulently obtain a $703,300 SBA
businesses of all sizes, and non-profit organiza-                 disaster assistance loan. Specifically, he was
tions. The SBA’s current disaster financial assistance            indicted for false statements, wire fraud, money
portfolio is over $7 billion.                                     laundering, and false and fraudulent claims.
                                                                  The man allegedly made false statements and
There are two primary types of disaster loans:                    representations concerning his financial condi-
(1) physical disaster loans for permanent rebuilding              tion and the location of integral business equip-
and replacement of uninsured disaster-damaged                     ment during a 2008 tornado. The investigation
privately-owned real and/or personal property, and                found that the company’s equipment was not
(2) economic injury disaster loans to provide neces-              present at certain locations and not subsequent-
sary working capital to small businesses until nor-               ly scrapped, as specified by the president during
mal operations resume after a disaster. As part of a              his application for disaster relief. He also por-
massive aid effort from Federal agencies, the SBA                 trayed a successful and profitable global busi-
approves billions of dollars in disaster assistance               ness operation and a positive cash flow when
loans. Unfortunately, the need to disburse such                   cash flows were actually negative. The president
loans quickly may create opportunities for dishonest              inflated 2008 income, reported a bogus contract
applicants to commit fraud.                                       with a major U.S. retailer, and inflated income
                                                                  projections. He also reported that all business
Fraud Related to Natural Disasters Continues                      debts were current and concealed over $4.5 mil-
                                                                  lion of additional business debt at three finan-
Over the past decade, various natural disasters have              cial institutions. These false representations
resulted in a major loss of life and property in the              and claims induced the SBA to approve the dis-
U.S. As part of massive aid efforts from Federal                  aster loan to his firm. The investigation showed
agencies, the SBA approved billions of dollars in                 that significant portions of loan proceeds were
disaster assistance loans. Unfortunately, the need to             used for purposes unrelated to the bottled water
disburse such loans quickly may have created op-                  company and were transferred to other busi-
portunities for dishonest applicants to commit                    nesses under the president’s control. Moreover,
fraud.                                                            the indictment specifies three large transfers in
                                                                  March and April 2009 as money laundering
 A Texas man was sentenced to three years’ pro-                  transactions. This is a joint investigation with
    bation and ordered to pay restitution of $34,964              the IRS CI.
    after he pled guilty to forgery of contracts,
    deeds, or powers of attorney. He had forged                A Louisiana woman was charged with theft of
    signatures of his estranged wife and others on                government funds. She had been approved for a
    SBA loan documents in order to obtain two SBA                 $98,700 home disaster assistance loan to repair
    disaster loans related to Hurricane Katrina.                  her residence, which had incurred damages
    The SBA approved a $95,600 home loan to re-                   from Hurricane Isaac. However, she and her
    pair his alleged residence and a $71,800 business             contractor allegedly submitted false repair in-
    loan to repair the other half of the same duplex,             voices. The investigation found that she sub-
    which he purported as rental property. He used                mitted false documents to the SBA to obtain
    the loan proceeds for personal living expenses,               loan proceeds and that her contractor provided
    and none went to repair the real property,                    false repair verifications to the SBA Disaster
    which actually belonged to his estranged wife.                PDC. The contractor subsequently admitted to
    The SBA suffered a loss of approximately                      falsifying $84,121 in bids, invoices, and repairs at
    $54,000. This case originated from an SBA Dis-                the woman’s request. She received $50,000 in
    aster Processing and Disbursement Center                      SBA loan proceeds before the fraud was detect-
    (PDC) referral.

                                                         10
    ed. The investigation originated from a referral         of Community Affairs (DCA), the DHS OIG, the De-
    by the PDC.                                              partment of Housing and Urban Development
                                                             (HUD) OIG, and the New Jersey Office of the Attor-
 The former owner of a Texas bowling center                 ney General.
    pleaded guilty to conspiracy to commit offenses
    against and to defraud the United States. The             A New Jersey man allegedly claimed that his
    investigation revealed that he had been ap-                  storm-damaged home on the Jersey Shore was
    proved for a $998,500 disaster loan for damages              his primary residence when it was not. He re-
    allegedly caused by Hurricane Humberto and a                 ceived $2,820 in Federal Emergency Manage-
    $885,600 loan for damages allegedly caused by                ment Agency (FEMA) rental assistance, and a
    Hurricane Ike. Both loans were disbursed in                  $10,000 grant under the HUD Homeowner Re-
    full, despite the absence of actual damage. This             settlement Program administered by the New
    is a joint investigation with the FBI.                       Jersey State DCA. The investigation disclosed
                                                                 that about one month after Superstorm Sandy,
Agency Avoids Superstorm Sandy Cost                              but before he filed the applications for storm
                                                                 aid, he changed the address on his driver’s li-
During this reporting period, the SBA Disaster PDC               cense to the damaged property address. He also
notified the OIG that the owner of a New York distri-            applied for a $94,400 SBA home disaster assis-
bution firm repaid a $19,000 disaster claim to the               tance loan that was cancelled because he pro-
SBA. The SBA originally approved the owner of the                vided the SBA with false information concern-
firm for a $734,700 disaster loan, of which $19,000              ing his primary residence.
was disbursed. During this investigative review, the
OIG determined that the borrower was not eligible             A Colorado man received $20,358 in FEMA
for the full loan amount, resulting in a cost avoid-             grants, including a $16,685 home repair grant
ance of $715,700.                                                and smaller rental assistance and personal prop-
                                                                 erty grants. He had filed applications claiming
Initially the owner claimed that he had personally               that a storm-damaged property in New Jersey
paid for the renovation of his leased business space,            was his primary residence when the home had
but could not provide supporting documentation to                actually been damaged by a fire in May 2009
the OIG or the PDC. He had provided the PDC with                 and had since been uninhabited with no utility
a list of Superstorm Sandy-related lost inventory                service. He was also charged with third-degree
with what the OIG later determined were corre-                   attempted theft by deception in connection
sponding retail values, not wholesale values. The                with applications for HUD funds that were de-
OIG also learned that the man was disputing his                  nied by the DCA. The SBA had declined his
insurance company’s findings with regard to his loss-            home disaster loan application.
es. Because the owner did not provide sufficient
documentary proof of his losses and because of the
                                                              A New York woman received $22,410 in FEMA
related OIG investigation, the PDC did not make any
                                                                 grants, including a $16,230 home repair grant
additional disbursements on this loan.
                                                                 and $6,180 in rental assistance. She claimed a
                                                                 storm-damaged house in New Jersey as her pri-
Four Charged in Superstorm Sandy Fraud
                                                                 mary residence when it was really a vacation
                                                                 rental property. The SBA declined her SBA
Four individuals have been charged with theft by
                                                                 home disaster loan application because she had
deception and unsworn falsification in connection
                                                                 provided the Agency with false information con-
with claims for assistance in the aftermath of Super-
                                                                 cerning her primary residence.
storm Sandy. These charges resulted from joint in-
vestigations with the New Jersey State Department




                                                        11
 A New Jersey woman received $21,128 in FEMA                 be ineligible for a loan increase because it had al-
    grants, including $18,858 for repairs and $2,270          ready recovered from the losses it incurred due to
    for rental assistance. She claimed a storm-               the disaster.
    damaged house on the Jersey Shore was her pri-
    mary residence, when the vacant home was ac-              While reviewing the loan files, the OIG observed
    tually owned by the family of her deceased hus-           that the SBA had received multiple inquiries from
    band, from whom she had been separated. As                elected officials on behalf of the two applicants. The
    administrator of his estate, she deeded herself a         OIG found no evidence that the loan decisions were
    50 percent interest in the home after receiving           the result of the external contacts, but auditors
    the FEMA grants. The SBA had declined her                 could not confirm this because the loan files were
    home disaster loan application.                           incomplete and did not explain how the prior denial
                                                              factors were addressed or mitigated. The SBA’s man-
                         ***                                  agement disagreed with the OIG’s findings, but con-
                                                              curred with the recommendation to implement new
Two Economic Injury Disaster Loans Defaulted After            procedures that require justification and supporting
the SBA Made Approval Decisions Totaling $1.4 Mil-            documentation to address all prior denial factors
lion without Mitigating the Reasons for Prior Denials         when a previous denial decision on a loan is over-
                                                              turned.
This report is the first of two reports resulting from
the OIG’s audit of the Economic Injury Disaster Loan                                   ***
(EIDL) Program. The overall audit objective was to
determine whether the SBA had sufficient controls
to ensure working capital loans under the EIDL Pro-
gram were approved to eligible borrowers for the
correct amount. During the audit, the OIG identified
three large defaulted EIDLs that involved inquiries
by elected officials and loan reconsiderations. As a
result, the OIG reviewed these loans to determine if
SBA Processing and Disbursement Center (PDC)
staff adequately addressed or mitigated prior loan
denial factors when it approved the loans. This re-
port addresses SBA’s approval decisions on two of
the large defaulted EIDLs.

The OIG determined that the PDC made two EIDL
approval decisions that, in effect, reversed previous
denial decisions. Further, the OIG found that the
PDC did not adequately address or mitigate the prior
denial factors or obtain supporting documentation
to overcome deficiencies. The decisions involved a
$736,300 working capital disaster loan and a $671,900
loan increase to separate businesses, totaling approx-
imately $1.4 million. One of the businesses appeared
to be ineligible for working capital disaster funds
because it lacked repayment ability and the appli-
cant intended to use the funds to relocate, not for
working capital. The other business also appeared to




                                                         12
Procurement Assistance
Small Business Development & Contracting Programs
The SBA works to maximize opportunities for small,              bribery, conspiracy, money laundering, and other
woman or minority-owned, and other disadvantaged                charges. They include government officials, execu-
businesses to obtain federal contract awards through            tives of 8(a) contractors, and employees of the ANC
its government contracting programs. These pro-                 contractor. This is a joint investigation with the FBI,
grams include, among others, the Historically Un-               the IRS CI, the U.S. Army Criminal Investigation
derutilized Business Zone (HUBZone) Empowerment                 Command, and the Defense Criminal Investigative
Contracting Program and the Section 8(a) Business               Service (DCIS).
Development Program.
                                                                During the reporting period, the chief financial
                                                                officer (CFO) of a Virginia technology firm was sen-
The SBA also negotiates with other federal agencies to
                                                                tenced to 46 months in prison and ordered to pay
establish agency-specific goals for small business con-
                                                                $1,188,500 in restitution and a forfeiture of the same
tracting with small, disadvantaged, women-owned,
                                                                amount. He had previously pled guilty to bribery,
service-disabled veteran-owned, and HUBZone busi-
                                                                conspiracy to commit bank fraud, and willful failure
nesses. The current government-wide goal is for
                                                                to file a tax return. The investigation revealed that,
small businesses to receive 23 percent of the total val-
                                                                from roughly February 2009 through October 2011,
ue of prime contracts awarded each fiscal year.
                                                                the CFO engaged in bribery of government officials.
                                                                He gave, offered, and promised over $200,000 for a
To help small disadvantaged businesses gain access to           U.S. Army public official’s benefit. In return, the
federal and private procurement markets, the SBA’s              CFO would receive the official’s assistance in direct-
Section 8(a) Business Development Program offers a              ing subcontracts to his firm and providing preferen-
broad range of business development support, such as            tial treatment on potential U.S. Army contracts. In
mentoring, procurement assistance, business counsel-            addition, he engaged in a scheme to defraud and
ing, training, financial assistance, surety bonding, and        obtain money and property from financial institu-
other management and technical assistance.                      tions through false and fraudulent pretenses, repre-
                                                                sentations, and promises. Finally, he willfully failed
The SBA also provides assistance to existing and pro-           to file an income tax return related to over $100,000
spective small businesses through a variety of coun-            in income earned in calendar year 2010.
seling and training services offered by partner organi-
zations. Among these partners are Small Business
Development Centers (SBDCs), the Service Corps of               Firms Gain Contracting Preferences by Falsify-
Retired Executives (SCORE), and Women’s Business                ing Eligibility
Centers (WBCs). Most of these are grant programs
that require effective and efficient management, out-           Investigations by the OIG and other federal agencies
reach, and service delivery.                                    have identified schemes in which companies owned
                                                                or controlled by non-disadvantaged persons falsely
More Legal Actions Stem from $2 Billion Contract                claim to be firms eligible for the Service-Disabled
Bribery Case                                                    Veteran-Owned Small Business (SDVOSB) Con-
                                                                cern, Historically Underutilized Business Zone
Ten individuals have been sentenced and 16 individu-            (HUBZone), Section 8(a) Business Development, and
als and 1 company either have been charged or have              ANC programs. The following cases illustrate the
pled guilty in a scheme involving more than $30 mil-            extent of this problem.
lion in bribes and kickback payments. A multi-agency
investigation uncovered a conspiracy that included
the use of a $1.3 billion Alaska Native Corporation
                                                                 The SBA, and a graduated 8(a) firm, and its own-
(ANC) sole source contract to pay for the bribes and                er entered into a $300,211 settlement agreement.
                                                                    The government alleged that the owner of a
the planned steering of a $780 million government
contract to a favored Section 8(a) program participant.             Pennsylvania firm had participated in the 8(a)
The individuals involved have thus far pled guilty to               program as the qualifying disadvantaged indi-



                                                           13
    vidual in the 1980s, but had failed to disclose              A man pled guilty to bribery of public officials
    this fact in 2001 when applying as the disadvan-                and conspiracy to bribe public officials. He
    taged individual seeking 8(a) status for her                    was ordered to forfeit property including mon-
    company. The government alleged this violated                   ey worth $106,964. The man had been a DoD
    the rule that would have rendered the firm inel-                supervisor for construction and service con-
    igible for the program because the owner had                    tracts at a military base in California and used
    previously exhausted her eligibility. This is a                 his position to extort bribes from companies
    joint investigation with the FBI.                               seeking to do business there, including two
                                                                    firms associated with the 8(a) program. After
 A Texas man pled guilty to wire fraud after hav-                  allegedly referring to himself as the
    ing been indicted for wire fraud and aggravated
                                                                    “Godfather” at the base and receiving thou-
    identity theft. According to the U.S. Govern-
                                                                    sands of dollars in cash payments and remod-
    ment Accountability Office (GAO) referral, the
                                                                    eling work on his condominium, the man was
    GAO received an anonymous letter alleging that
                                                                    arrested by federal agents.
    the man’s firm, an architectural and engineer-
    ing company, was falsifying documents to es-
    tablish its status as an SDVOSB. The firm re-                The owner of a construction prime contractor
    portedly falsified its engineers’ credentials, their            in the 8(a) program pled guilty to violating the
    office locations, the number of employees, and                  Anti-Kickback Act and making a false tax re-
    past projects. The investigation determined                     turn. He also pled guilty for his business’s role
    that the man did not have a Department of Vet-                  in violating the Anti-Kickback Act. The owner
    erans Affairs (VA) disability rating or service-                of a second construction prime contractor and
    connected disability. Thus, his firm was not a                  former participant in the 8(a) program also
    legitimate SDVOSB. The firm submitted a qual-                   pled guilty to conspiracy to bribe public offi-
    ifications form to the VA Contracting Office in                 cials and to violating the Anti-Kickback Act.
    San Antonio, TX, which included example pro-                    He also pled guilty for his firm’s role in the
    jects on which the firm did not actually work.                  same crimes. The two men had conspired to
    Moreover, at least three of the company’s “key                  pay bribes to the above DoD contracting su-
    personnel” shown in the documentation had                       pervisor. They made the bribe payments with
    never worked with or even heard of the man or                   the understanding that their respective busi-
    his firm. He confessed to these findings during                 ness would be awarded 8(a) contracts at a mil-
    an OIG interview. The VA awarded the firm an                    itary installation. One man made at least
    SDVOSB set-aside contract and ten related task                  $74,000 in cash bribes and directed the other
    orders worth $1,587,952. This is a joint investi-               man to pay at least an additional $20,000 to
    gation with VA OIG.                                             the contracting supervisor. In addition, one
                                                                    firm painted the supervisor’s residence at no
                                                                    cost and remodeled his personal property.
Kickbacks Uncovered in Defense Contracting                          The combined value of these free services was
A multi-agency investigation involving the 8(a) pro-                around $8,000. Finally, one of the business
gram and the U.S. Department of Defense (DoD)                       owners accepted a kickback in the form of a
determined that 8(a) contractors in California were                 subcontractor’s $15,000 cashier’s check made
receiving kickbacks from subcontractors. Addition-                  payable to his son but for his benefit.
al allegations of bribery of a public official have de-
veloped during the investigation, and the Depart-                Two brothers—the president and vice presi-
ment of the Navy has suspended seven individuals                    dent of a subcontractor—pled guilty to violat-
and six companies. This is a joint investigation with               ing the Anti-Kickback Act. From at least 2009
the FBI, Naval Criminal Investigative Service (NCIS),               through 2010, the subcontractor worked on
IRS CI, DCIS, and General Services Administration                   various 8(a) contracts for one of the previously
(GSA) OIG. The following are the legal actions that                 mentioned prime contractors. During that
occurred during the reporting period.

                                                           14
    time, the two brothers paid over $44,000 in              A different former employee of a Virginia-based con-
    kickbacks to the owner of the prime contractor.          tractor that claimed SDVOSB status was sentenced to
    The kickbacks consisted of cash and checks               sixteen months in prison, followed by two years of
    drawn on subcontractor accounts issued to the            supervised release, for conspiracy to commit wire
    son of the owner of the other previously men-            fraud and major fraud against the government. He
    tioned prime contractor. The checks were for             was also ordered to forfeit $1,065,104 in personal pro-
    the benefit of that owner. Other kickbacks to            ceeds from the conspiracy. Not only did he perform
    the owner consisted of the subcontractor per-            the same actions as the previously mentioned person,
    forming work at the personal residences of the           but he also worked with co-conspirators within the
    owner’s relatives for no profit. The subcontrac-         government to gain access to internal documents in
    tor made the kickbacks to obtain favorable               advance of bidding on contracts. These internal doc-
    treatment in the awarding of current and future          uments included the Independent Government Cost
    federal subcontracts.                                    Estimates (IGCE). He also drafted portions of govern-
                                                             ment procurement documents. Finally, he agreed to
 The owner of an architectural firm was charged             pay co-conspirators working within the government
    with violating the Anti-Kickback Act. The                for his competitive advantage on contracts that to-
    charge relating to fraud involving two prime             taled approximately $33 million. He gained at least
    contractors associated with the 8(a) program.            $1,065,104 because of his participation in the conspira-
    Specifically, the owner was charge with know-            cy. This is a joint investigation with the DHS OIG, VA
    ingly and willfully providing a $5,000 kickback          OIG, GSA OIG, and DOJ.
    check to a prime contractor.
                                                             Texas Man Pleads Guilty
Contractor Employees Manipulate Bidding
                                                             A Texas man pled guilty to making false statements to
A former employee of a Virginia-based government             federal agencies. He had recruited a service-disabled
technology contractor that claimed status as an              veteran to be a partner in an SDVOSB. The veteran,
SDVOSB was sentenced to three months incarcera-              believing he was to be a silent partner, agreed to be
tion and two years of probation upon release. He             part of the SBVOSB. In reality, the veteran had no
also was ordered to forfeit $80,000 and was assessed         financial investment in the firm, performed no work
a $5,000 fine. The sentencing followed a guilty plea         for the company, and did not exercise a controlling
in connection with his role in conspiring with other         interest in it. The man used the firm’s fraudulently
SDVOSBs to obtain federal government contracts               obtained SDVOSB status to secure nearly $1,329,000
through fraud and misrepresentation.                         in funds through VA contracts.

The man and employees of other SDVOSBs con-
                                                             Woman Indicted for Fraud
spired to submit what appeared to be competing
bids for government contracts, when in fact they             A North Carolina woman was indicted for major
knew the bids were not competitive. They identified
                                                             fraud against the government, making false state-
government contracts to bid on and prepared bids
                                                             ments, wire fraud, mail fraud, and aggravated identity
for one another using the bid templates of the other.
                                                             theft. The woman, as the owner of a masonry firm,
The man then directed another firm’s employees to
                                                             allegedly created a construction company in order to
submit the completed bids to the government as
                                                             obtain two small business subcontracts on a Depart-
their own. This practice restricted legitimate com-
                                                             ment of Navy contract. She created the construction
petition by creating the false impression that the
                                                             company after a $14 million subcontract was awarded
government had already received multiple compet-
                                                             to her masonry firm. She allegedly also offered the
ing bids. The employee made at least $80,900 from
                                                             use of the construction company to replace the ma-
his participation in the conspiracy.
                                                             sonry firm in exchange for a two percent fee. In 2010,
                                                             she mailed an apparently falsified North Carolina

                                                        15
HUBZone application, with fraudulently altered                  During a 26-day trial, the government presented evi-
supporting documents, on behalf of the construc-                dence that she omitted, deleted, altered, and miscate-
tion company. She also allegedly forged another                 gorized entries in her firm’s financial records. She
person’s signature on documents related to that                 also concealed her role or relationship in other busi-
company. This is a joint investigation with the                 ness entities that dealt with her company. Conse-
DCIS and the NCIS.                                              quently, the firm received more than $2.5 million in
                                                                federal government contracts based on the company's
President of Idaho Firm Sentenced                               fraudulently obtained 8(a) status. The firm received
                                                                more than $15 million in state government contracts
                                                                based on the company's fraudulently obtained DBE
The former president and majority shareholder of an
                                                                status in Idaho and Utah. The government also pre-
Idaho construction firm was sentenced to 84
                                                                sented evidence that she and the minority sharehold-
months in prison followed by three years of super-
                                                                er conspired to obstruct justice by fabricating docu-
vised release for conspiracy, wire fraud, and mail
                                                                ments and making false statements to impede an IRS
fraud. She was also sentenced to 24 months in pris-
                                                                audit of the firm, and a criminal investigation of her.
on for tax fraud and obstruction of justice followed
                                                                The woman and the shareholder intended for these
by three years of supervised release. The sentences
                                                                fabricated documents to conceal the true nature,
will run concurrently. In addition, she was ordered
                                                                source, and extent of property belonging to her. This
to pay $98,825 in restitution to the IRS, $32,575 to
                                                                was a joint investigation with the IRS CI, DOT OIG,
the Idaho Disadvantaged Business Enterprises (DBE)
                                                                and the FBI.
Program, and $22,859 in prosecution costs. She
paid a $3,084,038 forfeiture prior to sentencing. She
had previously been convicted of filing false individ-          Florida Man Sentenced for Fraud against NASA
ual and corporate tax returns, conspiracy to defraud            and Others
the United States, wire fraud, mail fraud, making a
false statement, interstate transportation of property          A Florida man was sentenced in Virginia to 60
taken by fraud, conspiracy to obstruct justice, and             months incarceration followed by 24 months of su-
obstruction of justice. Moreover, an Idaho man and              pervised release, and was ordered to pay a $12,500 fine
minority shareholder in her business was sentenced              and a forfeiture of $2,960,697. He had pled guilty to
to three months in prison followed by two years of              major fraud against the government. He admitted
supervised release. He was also ordered to pay a                that, in 2005, he learned that an executive at a securi-
$5,000 fine and perform 100 hours of community                  ty service consulting firm illegally controlled another
service after having been found guilty of obstruction           such company that participated in the 8(a) program.
of justice and conspiracy to obstruct justice.                  Although the executive at the first company con-
                                                                trolled the second company, the second firm had ob-
                                                                tained its 8(a) status based on a nominal owner’s dis-
The former president had taken steps to lower, arti-
                                                                advantaged status. The Florida man admitted that he
ficially, her personal net worth, such as placing as-
                                                                agreed to pay the executive and the second firm a fee
sets into the names of nominees in order to appear
                                                                in exchange for that firm allowing him to use its 8(a)
economically disadvantaged. This allowed her firm
                                                                status to obtain National Aeronautics and Space Ad-
to qualify for the Department of Transportation’s
                                                                ministration (NASA) and other U.S. government con-
(DOT) DBE and the 8(a) programs. She also caused
                                                                tracts. Although the second firm was required to per-
false and fraudulent tax returns to be filed for herself
                                                                form at least 50 percent of the work on the contracts
and the company, which did not report all income
                                                                and had represented that it would do so, no employ-
received. The false returns and financial statements
                                                                ees performed any work. Instead, the Florida man
were submitted to support the firm’s applications to
                                                                and others did all of the work as independent con-
the 8(a) program and the DBE program for Idaho
                                                                tractors but concealed that fact from the government.
and Utah.
                                                                He also submitted fraudulent proposals and invoices



                                                           16
to hide the scheme, used a third-party company’s            space and many of the same employees. The man
Federal Employer Identification Number to prevent           conspired to defraud the SBA by concealing on the
reporting of his contractor income to the IRS, and          second firm’s 8(a) application and on annual updates
did not pay income taxes on the income he received          that:
from the second firm. This is a joint investigation
                                                                     (1) he exercised control over the second
with the NASA OIG, the DCIS, and the DHS OIG.
                                                                     firm’s operations;
Utah Firm Agrees to Large Settlement
                                                                     (2) he had previously supervised the former
A Utah-based construction company entered into                       roofer at the first firm;
settlement agreements with the DOJ and the SBA.
In the settlement agreement with the DOJ, the com-                   (3) he owned more than 10 percent of the
                                                                     first firm and was related to an owner of the
pany agreed to pay $928,000 to the United States.
                                                                     second firm;
The DOJ alleged that the company improperly ob-
tained and worked on contracts awarded to an 8(a)
                                                                     (4) he and his wife had personally guaran-
firm, thus violating the False Claims Act by know-
ingly submitting, or causing to be submitted, false                  teed bonding, bank loans, and lines of credit
                                                                     for the second firm; and
claims to the United States. The construction com-
pany did not concur with DOJ’s position but agreed,                  (5) no non-disadvantaged individual member
without admission, to the settlement agreement.                      of the second firm’s management received
                                                                     compensation in any form that exceeded the
The firm also entered into an administrative agree-                  former roofer’s compensation.
ment with the SBA as a result of the DOJ settlement.
The firm agreed to refrain from participation in the        The second firm paid millions of dollars to the Mary-
SBA 8(a) program and any SBA mentor-protégé pro-            land man, including salary and other payments to
grams for five years. The SBA alleged that the firm         bank accounts in his and his wife’s names. There
knowingly submitted, or caused to be submitted,             were also payments to the first firm and to casinos on
false, or fraudulent claims. The firm did not concur        behalf of the couple, as well as personal charges to the
with SBA’s position but agreed, without admission,          second firm’s credit cards. Because of the fraudulent
to the administrative agreement.                            application and updates, the second firm received
                                                            more than $50 million in 8(a) program contracts to
                                                            which it was not entitled. Further, the first company
Maryland Man Pleads Guilty to 8(a) Fraud                    recorded, falsely, more than $1 million in transfers to
                                                            bank accounts and casinos in company records as
                                                            corporate expenses paid for subcontractors, which he
A Maryland man pleaded guilty to conspiracy to
                                                            concealed from his tax preparer. As a result, the tax
defraud the United States following an indictment
                                                            preparer produced corporate tax returns for the first
for schemes to seek, fraudulently, federal contracts
under the 8(a) program. He owned less than half of          firm, which overstated the company’s expenses. The
a roofing and construction company while it partici-        preparer also produced personal income tax returns
pated in the program. In March 2002, his firm grad-         for the man that understated his taxable income,
                                                            thereby falsely understating the taxes owed to the
uated from the program, and he became the compa-
ny’s president and sole owner. Prior to that, in            IRS. This is a joint investigation with the DCIS, GSA
August 1999, he had caused a second roofing and             OIG, and IRS CI.
construction company to be incorporated and ar-
                                                            Civil Settlement Results from Contracting
ranged for a member of an underrepresented
group—who was a former roofer and project manag-            Scheme
er at the first firm—to own 60 percent of the second
company. He also arranged for his son to own the            Five masonry firms and the presidents of two of the
remaining 40 percent while he received the title of         firms paid $698,250 as part of a civil settlement in
                                                            connection with a contracting scheme. This payment
senior vice president. The two firms shared office

                                                       17
was based on the sale of a president’s personal resi-          recommended four actions directed to the Chief Fi-
dence and is in addition to an earlier civil settlement        nancial Officer to improve financial and contract
of $1,175,000. The total settlement now stands at              management at the SBA and significantly decrease
$1,873,250.                                                    the total number of future improper payments.

In early 2011, a military command in Virginia issued           Opportunities Exist to Further Improve Quality
a “Solicitation, Offer and Award” for a series of con-         and Timeliness of HUBZone Certifications
struction projects at a military base. In August 2011,
the contract for over $67 million was awarded to a             This report presented the results of the OIG’s audit to
large construction company. One masonry firm                   determine whether the SB’s HUBZone Program certi-
submitted a $9.4 million bid to do masonry work as             fication process provided assurance to limit program
a subcontractor. An employee of the construction               certification to eligible firms.
company subsequently told the president of that
masonry firm that his firm would receive the sub-              The OIG found that in recent years, the HUBZone
contract if it used a minority-owned company. The              certification process had been reengineered from self-
president agreed to use an affiliated company that             certification to a full document review and that the
he controlled as a front to receive the subcontract.           SBA properly certified 9 of 12 firms reviewed. Howev-
All of the work on the subcontract was subsequently            er, the OIG identified three firms the SBA certified
passed through to the original masonry firm. This is           even when the firms did not meet all of the eligibility
a joint investigation with the NCIS and DCIS.                  criteria. Ineligible firms that obtained certification
                                                               distorted the small business HUBZone goaling num-
                         ***                                   bers by at least $1.3 million and possibly took con-
                                                               tracting opportunities away from eligible firms. Addi-
The SBA’s FY 2012 Reported Improper Payment                    tionally, certifying ineligible firms detracted from the
Rate for Disbursements and Contracting was                     economic benefits the program intends to promote in
Inaccurate and Incomplete                                      the disadvantaged HUBZone areas. The SBA also did
                                                               not meet the required 30-calendar day timeline for
This report presented the results of the OIG’s review          any of the 12 firms we reviewed, nor did it meet the
of the SBA’s FY 2012 invoice payments for contract-            proposed deadline of 90 days for five firms. For firms
ing activities. The OIG found that the SBA made                who are certified, the amount of time the SBA takes
significant progress in reducing the improper pay-             to review the application directly inhibits their oppor-
ment rate for disbursements and contracting from               tunities to obtain federal contracts. The OIG made
89 percent in FY 2011 to 9.6 percent in FY 2012.               three recommendations to improve the HUBZone
However, the OIG determined that the information               certification process and decrease the likelihood of
presented in the SBA’s FY 2012 Agency Financial                ineligible firms receiving HUBZone certification.
Report was inaccurate and the reported improper
payment rate for FY 2012 disbursements and con-                The SBA Did Not Follow Regulations and Guid-
tracting was incomplete. Specifically, the 9.6 per-            ance in the Acquisition of the OneTrack System
cent improper payment rate included only a portion
of the errors identified as the SBA did not report             This report presented the results of the OIG’s review
errors that it determined to be the result of inade-           of the SBA’s acquisition of the OneTrack System. The
quate or missing documentation. Further, the OIG               objective of the audit was to assess the SBA’s compli-
found that SBA personnel did not consistently apply            ance with Federal contracting regulations and guid-
the FY 2012 Improper Payment Test Plan for dis-                ance over Information Technology systems acquisi-
bursements and contracting. Consequently, they                 tion and project oversight. The OIG determined that
classified a number of payments as having met the              the SBA did not follow federal regulations and guid-
test plan criteria. In addition, they tested payments          ance in its acquisition of the OneTrack system for use
not related to contracting disbursements. The OIG              by the Business Development (BD), Historically Un-


                                                          18
derutilized Business Zone (HUBZone), and three                Legislation Requires SBA Regulations and
new Mentor-Protégé Programs. As a result, the SBA             Approval of SBDC Surveys
did not receive a system with full capabilities as
originally designed. The original OneTrack system
                                                              In December 2004, Congress amended section 21(a)
should have been completed in a 12-month period at
                                                              (7) of the Small Business Act (15 U.S.C. 648(a)(7)) to
a total cost of around $1.17 million. Instead, the SBA
                                                              restrict the disclosure of information regarding indi-
modified the task order to receive a system with the
                                                              viduals or small businesses that have received assis-
same, limited functions as the existing system in
                                                              tance from a Small Business Development Center
use, the Business Development Management Infor-
                                                              (SBDC) and to limit the Agency’s use of such infor-
mation System (BDMIS). However, the SBA still did
                                                              mation. The provision also required the SBA to issue
not have a tested and approved system—that in-
                                                              regulations regarding disclosures of such information
cluded existing BDMIS capabilities—to put into
                                                              for use in conducting financial audits or SBDC client
production when the task order expired. To date,
                                                              surveys. In 2009, the Agency represented to the OIG
the SBA has increased the total cost of the system by
                                                              that it would issue regulations as required by the stat-
approximately $734,000 and extended the perfor-
                                                              ute. During the reporting period, the SBA prepared a
mance of the acquisition by 14 months. The OIG
                                                              revised draft, and sent the proposed regulations to
made four recommendations.
                                                              the Federal Register so they could be published for
                                                              public comment.
                         ***
                                                              In addition, section 21(a)(7) of the Small Business Act
                                                              states that, until the issuance of these SBDC infor-
                                                              mation disclosure regulations, any SBDC client survey
                                                              and the use of such information shall be approved by
                                                              the Inspector General, who shall include such approv-
                                                              al in the OIG’s Semiannual Report to Congress. Ac-
                                                              cording to a report from the Agency, the SBA did not
                                                              conduct any surveys of SBDC clients during the first
                                                              half of FY 2014.

                                                                                        ***




                                                         19
Agency Management

Agency management includes activities of the Offic-               tion Improvement Act of 1996, which is also a
es of the Chief Financial Officer (CFO), the Chief                repeat condition.
Information Officer (CIO), and Management and
Administration. These activities encompass finan-             Details regarding the auditor’s conclusions are in-
cial reporting and performance management, hu-                cluded in the “Compliance and Other Matters” sec-
man resources, procurements and grants, space and             tion, and Exhibit I of the Independent Auditors’ Re-
facilities, and maintenance of the SBA’s information          port.
systems and related security controls.
                                                              Independent Auditors’ Report on the SBA’s
                         ***                                  FY 2013 Special-Purpose Financial Statements

Independent Auditors’ Report on the SBA’s                     This report presented the results of the independent
FY 2013 Financial Statements                                  auditors’ report on the SBA’s FY 2013 Special-
                                                              Purpose Financial Statements. In accordance with
This report presented the results of the independent          the Office of Management and Budget Circular No.
auditors’ report on the SBA’s FY 2013 Financial State-        A-136, Financial Reporting Requirements and the
ments. The OIG contracted with an independent                 Treasury Financial Manual, Part 2, Chapter 4700
public accounting firm to audit the SBA’s consolidat-         (TFM 2-4700), the independent auditor issued its
ed financial statements as of September 30, 2013, and         report on the Small Business Administration’s (SBA)
2012, and for the years then ended. The contract              reclassified balance sheet as of September 2013 and
required that the audits be conducted in accordance           2012, and the reclassified statements of net costs and
with Generally Accepted Government Auditing                   changes in net position and Federal trading partner
Standards; the Office of Management and Budget                note for the year then ended.
Bulletin No.14-02, Audit Requirements for Federal
Financial Statements; and the U.S. Government Ac-             The auditor found that the statements, including the
countability Office’s Financial Audit Manual and              Federal trading partner note, presented fairly in all
Federal Information System Controls Audit Manual.             material respects, the financial position of the SBA
This audit is an annual requirement of the Chief              as of September 30, 2013, and 2012. Also, the results
Financial Officers Act of 1990.                               of operations and the changes in net position for the
                                                              period then ended are in accordance with U.S. gen-
The auditor’s report includes an opinion on SBA’s             erally accepted accounting principles, and the
financial statements, internal control over financial         presentation is in conformance with the require-
reporting, and compliance and other matters that              ments of TFM 2-4700.
have a direct and material effect on the financial
statements. The auditor issued an unmodified opin-            Management Letter-SBA’s FY 2013 Financial
ion on SBA’s fiscal year 2013 consolidated financial          Statement Audit
statements. In summary, the auditor found that:
                                                              This report presented the results of the independent
 The financial statements were fairly presented,             auditors’ report on the Management Letter-FY 2013
    in all material aspects, in conformity with U.S.          Financial Statement Audit. The management letter
    generally accepted accounting principles.                 includes information related to non-reportable find-
   There were no material weaknesses in internal             ings discovered during the audit of SBA’s FY 2013
    control.                                                  financial statements.
   There is a significant deficiency related to SBA’s
                                                              In this letter, the auditor noted seven matters in-
    information technology security controls, which
                                                              volving internal controls and other operational mat-
    is a repeat condition.
                                                              ters that included: (1) improvement needed in the
   There is one instance of noncompliance with               documentation of the obligations review process; (2)
    laws and regulations related to the Debt Collec-          missing loan file documentation; (3) untimely post-

                                                         20
purchase and charge-off reviews and untimely processing              Cosponsorships and Fee-Based Administration-
of charge-off transactions; (4) lack of required sign-offs on        Sponsored Events
guaranty purchases and charge-offs; (5) incorrect amount
paid at the time of purchase guaranty; (6) inadequate re-            Section 4(h) of the Small Business Act, as amended,
view of Star and Attendance Reports; and (7) improve-                requires the OIG to report to Congress on a semi-
ment needed in the employee separation process. The au-              annual basis regarding the Agency’s use of its authori-
ditor made 21 recommendations to which agency offi-                  ty in connection with cosponsorships and fee-based
cials or designees agreed to implement or have al-                   Administration-sponsored events. The SBA’s Office
ready taken action to address the underlying condi-                  of Strategic Alliances provided information to the
tions.                                                               OIG related to co-sponsorships, including the names,
                                                                     dates, and locations of the cosponsored events and
                            ***                                      the names of the cosponsors. This information was
SBA Gift Authority                                                   not verified by the OIG. As shown in Appendix IX,
                                                                     between October 1, 2013, and March 31, 2014, the Ad-
Section 4(g)(2) of the Small Business Act, as amended,               ministrator—through her approved designees—fully
provides that any gift, devise, or bequest of cash ac-               executed 87 cosponsorship agreements.
cepted by the Administrator under Section 4(g) shall
be held in a separate account and shall be subject to                                         ***
semiannual audit by the Inspector General, who shall
report his findings to Congress.

During the October 1, 2013 and March 31, 2014, report-
ing period, the SBA’s Office of Strategic Alliances did
not report any cash gifts.


                            ***




                                                                21
Other Significant OIG Activities

Character Screening Reduces Potential                            payer funds from parties who have engaged in fraud
Program Fraud                                                    or otherwise exhibited a lack of business integrity.
                                                                 The OIG regularly identifies individuals and organi-
                                                                 zations for debarment and other enforcement ac-
Participants in SBA programs involving business
                                                                 tions, and submits detailed recommendations with
loans, disaster assistance loans, Section 8(a) certifica-
                                                                 supporting evidence to the responsible SBA officials.
tions, surety bond guarantees, SBICs, and CDCs must
                                                                 Most OIG administrative referrals involve the abuse
meet Agency character standards. To help ensure
                                                                 of SBA’s loan and preferential contracting programs.
that this occurs, the OIG’s Office of Security Opera-
                                                                 Where appropriate, the OIG recommends that the
tions utilizes name checks and, where appropriate,
                                                                 SBA suspend the subject of an ongoing OIG investi-
fingerprint checks to determine criminal background
                                                                 gation given program risk presented by the continued
information. During this reporting period, the OIG
                                                                 participation of those individuals and entities.
processed 1,705 external name check requests for
these programs.
                                                                 During this reporting period, the OIG sent 22 suspen-
                                                                 sion and debarment referrals to the SBA. Additional-
The OIG also refers applicants who appear ineligible
                                                                 ly, OIG investigations resulted in 35 suspension or
because of character issues to program officials for
                                                                 debarment referrals that went to other agencies. The
adjudication. The referrals are based on data from
                                                                 OIG also referred several other entities for program
the OIG’s on-line connection with the FBI. As a re-
                                                                 termination and other administrative enforcement
sult of OIG referrals during this reporting period,
                                                                 actions. (See the Statistical Highlights section of this
SBA business loan program managers declined 13
                                                                 report for additional suspension and debarment re-
applications totaling $7,067,405 and disaster loan
program officials declined 19 applications totaling              sults.)
$2,737,100. In addition, the Section 8(a) program de-
clined 9 applications for admission and the Surety               The following provides examples of OIG referrals for
Bond Guaranty program declined 1 application for                 administrative enforcement actions during this re-
admission.                                                       porting period:

During this reporting period, the OIG also initiated             Government Contractor and its President Re-
99 background investigations and issued 6 security               ferred for Suspension Based on Alleged HUBZone
clearances for Agency employees and contractors.                 Fraud
The OIG also adjudicated 40 background investiga-
tive reports and coordinated with SBA’s Office of                The OIG referred a Government contractor and the
Disaster Assistance to adjudicate 51 derogatory back-            president of that contractor for suspension. The pres-
ground investigation reports. Finally, the OIG pro-              ident and contractor appear to have made multiple
cessed 1,986 internal name check requests for Agency             false and misleading statements to the SBA regarding
activities such as success stories, “Small Business              the location of their principal place of business in
Person of the Year” nominees, and disaster assistance            order to qualify for a HUBZone certification. Sepa-
new hires.                                                       rately, the OIG is working with the Department of
                                                                 Justice on a civil False Claims Act case related to this
                          ***                                    matter.

                                                                 Owner and Government Contractor Referred for
The OIG Promotes Debarment and Other
                                                                 Suspension Based on Alleged Disaster Loan Fraud
Administrative Enforcement Actions
                                                                 The OIG referred the indicted owner of a Govern-
As a complement to the its criminal and civil fraud              ment contractor, who also served as a bank president
investigations, the OIG continually promotes the use             and CEO, for suspension. That individual is currently
of suspensions, debarments, and other administra-                under indictment for wire fraud and other crimes
tive enforcement actions. These actions protect tax-             related to an SBA disaster loan. The bank where the

                                                            22
indicted individual serves as president and CEO is a            claims of up to $150,000 administratively rather than
lender participating in SBA’s guaranteed loan pro-              initiating a case in Federal court. A report issued by
grams.                                                          the Government Accountability Office based upon a
                                                                survey of OIGs found that many Federal agencies
Loan Officer Referred for Suspension after Falsi-               were making limited or no use of the PFCRA. As
fying SBA Form                                                  previously reported, the OIG established a PFCRA
                                                                Working Group with representatives from multiple
The OIG referred a loan officer for suspension based            OIGs to examine the issue and develop solutions to
on allegations of falsifying an applicant’s signature on        expand use of the statute. During the reporting peri-
an SBA form designed to elicit an applicant’s criminal          od, the Working Group completed a PFCRA Practi-
record. The loan officer falsely indicated the subject          tioner’s Guide, which provides a “cradle to grave”
of the form did not have a criminal record when, in             overview of initiating and litigation a PFCRA case.
fact, that individual had a felony conviction. The              The CIGIE approved this Guide in November 2013.
loan officer claimed not to have known the applicant            The Working Group also began developing a training
had a felony conviction when confronted with the                program and prepared a report summarizing the
apparent forgery.                                               results of a survey the Working Group undertook on
                                                                use of the PFCRA and offering suggested practices
The OIG Provides Training to Multiple Agencies                  OIGs can take to promote use of that act to deter
to Promote Debarment and other Remedies                         fraud. The SBA OIG appreciates the significant con-
                                                                tributions from OIGs at the Department of Housing
During the reporting period, OIG representatives                and Urban Development, the National Science Foun-
continued to provide suspension and debarment                   dation, the Department of the Interior, the Depart-
training to auditors, inspectors, evaluators, and attor-        ment of Health and Human Services, the Nuclear
neys throughout Federal OIGs in coordination with               Regulatory Commission, and the Environmental Pro-
the Council of the Inspectors General on Integrity              tection Agency. The Working Group’s efforts will
and Efficiency (CIGIE) Training Institute. The CIGIE            continue into the next reporting period.
Training Institute held one training session with
practical exercises teaching OIG employees how to                                        ***
prepare suspension and debarment referrals from
audits.                                                         OIG Reviews Lead to Improved Program
                                                                Controls to Reduce Fraud, Waste, Abuse
Representatives of the OIG also moderated and                   and Inefficiencies
served on two panels at a workshop sponsored by the
CIGIE and the Interagency Suspension and Debar-                 As part of the OIG’s proactive efforts to promote
ment Committee. This workshop, Total Accountabil-               accountability and integrity and reduce inefficien-
ity: Suspension, Debarment and Beyond, focused on               cies in SBA programs and operations, the OIG re-
advanced suspension, debarment, and remedies co-                views changes that the SBA proposes to make to its
ordination issues.                                              program directives. Such proposals relate to regula-
                         ***                                    tions, internal operating procedures, agency policy
                                                                notices, and SBA forms that the public can access
The OIG Continues Leadership Role in CIGIE                      and complete. Through the review process, the OIG
Project to Promote Use of the Program Fraud                     often identifies material weaknesses in the proposals
Civil Remedies Act                                              and works with the Agency to implement recom-
                                                                mended revisions to promote more effective controls
The OIG is heading a project that the CIGIE estab-              and deter waste, fraud or abuse. During the report-
lished in November 2012, to promote government-                 ing period, the OIG reviewed 38 proposed revisions
wide use of the Program Fraud Civil Remedies Act                of these program directives and submitted com-
(PFCRA). The PFCRA provides an administrative                   ments to improve 20 of these initiatives.
remedy so that agencies may seek recovery for false


                                                           23
Specifically, the OIG provided extensive comments      The OIG Hotline
on several internal procedures governing the 8(a)
Business Development Program to promote better         The OIG Hotline reviews allegations of waste, fraud,
oversight of program participants. The OIG also        abuse, or serious mismanagement in the SBA or its
recommended revisions to the application form for      programs from employees, contractors, and the pub-
this program to promote more robust screening          lic. A preliminary review of all complaints is conduct-
processes to prevent ineligible firms from being ad-   ed to determine the appropriate course of action. As
mitted to the program. With respect to SBA’s small     part of the review process, Hotline staff may coordi-
business financial assistance programs, the OIG pro-   nate reviews of allegations with Investigations, OIG
vided comments on critical procedures and pro-         Counsel, Auditing, and SBA Program Offices. Out-
posed regulations to enhance SBA’s oversight of,       comes of investigations initiated as a result of a Hot-
and enforcement capabilities regarding loan agents     line complaint are monitored by Hotline staff. During
in the 7(a) loan guaranty program. As set forth in     the first half of FY 2014, the Hotline received 271 com-
the OIG’s Fiscal Year 2014 Report on the Most Seri-    plaints requiring additional analysis or referral.
ous Management and Performance Challenges Facing
the Small Business Administration, ongoing fraudu-     Of the 271 complaints requiring additional analysis or
lent schemes by loan agents represent one of the       referral, 45 were addressed and closed by the Hotline,
most significant challenges facing the Agency. The     32 were referred to SBA Program Offices, 30 were re-
OIG also issued recommendations that led to im-        ferred to OIG Investigations, 4 were referred to OIG
provements in proposed regulations governing the       Counsel, 3 were referred to OIG Audit Division, and 2
percentage of work performed by small business         were referred to outside Agencies. There are 155 com-
contractors. Finally, the OIG provided extensive       plaints currently under review by the Hotline Staff.
comments on a large number of other SBA internal
procedures and public use forms to promote greater     During the first half of FY 2014, Hotline staff contin-
accountability and effectiveness in SBA programs       ued to review and monitor complaints received dur-
and operations.                                        ing previous reporting periods. They also closed 303
                                                       such complaints. Specifically, 172 were referred to
                        ***                            OIG investigations, 52 were addressed and closed by
                                                       Hotline staff, 67 were referred to SBA Program Offic-
                                                       es, 5 were referred to outside agencies, 6 were referred
                                                       to OIG Audit, and 1 was referred to OIG Counsel.

                                                                                 ***




                                                       24
Statistical Highlights:
October 1, 2013-March 31, 2014

                                     Summary of Office-Wide Dollar Accomplishments


As a Result of Investigations & Related Activities

–Potential Investigative Recoveries & Fines                                                                                    $8,377,751
–Asset Forfeitures Attributed to OIG Investigations                                                                           $7,590,739

–Loans/Contracts Not Approved or Canceled as a Result of Investigations                                                         $715,700

–Loans Not Made as a Result of Name Checks                                                                                   $9,804,505
Investigations Sub-Total                                                                                                    $26,488,695
                                        *
As a Result of Audit Activities

–Disallowed Costs Agreed to by Management                                                                                    $7,902,208
–Recommendations that Funds Be Put to Better Use Agreed to by Management                                                    $89,800,000

Audit Sub-Total                                                                                                             $97,702,208

TOTAL                                                                                                                      $124,190,903
*
    The numbers in these cells represent reclassification of previously reported amounts from questioned/unsupported costs to recommended
    funds for better use. The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.




      Efficiency and Effectiveness Activities Related to Audit, Other Reports, and Follow-Up Activities



Reports Issued                                                                                                                           9

Recommendations Issued                                                                                                                 60
Dollar Value of Costs Questioned                                                                                              $3,292,224

Dollar Value of Recommendations that Funds be Put to Better Use                                                                        $0

Recommendations for which Management Decisions Were Made                                                                               58
Recommendations Without a Management Decision                                                                                          57
Collections as a Result of Questioned Costs                                                                                              0



                                                                    25
                           Indictments, Informations, Convictions, and Other Case Actions


Indictments/Informations from OIG Cases                                                                                52
Convictions from OIG Cases**                                                                                           40

Cases Opened                                                                                                           16
Cases Closed                                                                                                           21




                               SBA Personnel Actions Taken as a Result of Investigation


Dismissals                                                                                                            0
Resignations/Retirements                                                                                              0

Suspensions                                                                                                           0
Reprimands                                                                                                            0

Other                                                                                                                 0




                              Hotline Complaints Received and Related Referral Actions


Investigations                                                                                                        172

Audit                                                                                                                 6
Counsel                                                                                                                1

Program Offices                                                                                                       67

Other Agencies                                                                                                         5

Closed at Intake by Hotline Staff*                                                                                    52

TOTAL                                                                                                                 303

*These are complaints closed at intake by the   Hotline staff when no action was taken or no referral was required.




                                                                       26
              Program Actions Taken During the Reporting Period as a Result of Investigations


Legislation, Regulations, Standard Operating Procedures, and Other Issuances Reviewed                                           38
Suspensions and/or Debarments Recommended to the Agency*                                                                        22*

—Pending at the Agency as of March 31, 2014**                                                                                   58

Suspensions Issued by the Agency                                                                                                 8

Proposed Debarments Issued by the Agency                                                                                         8

Final Debarments Issued by the Agency                                                                                            9

Proposed Debarments Declined by the Agency                                                                                       0

Administrative Agreements Entered by the Agency in Lieu of Debarment                                                             3

Suspension and Debarment Actions by Other Agencies                                                                              35
Program Actions

—Termination from SBA Programs                                                                                                   1

—Termination from Other Government Programs                                                                                      0

—Size Determination                                                                                                              0

* The SBA agreed to allow another agency to take lead agency status on one matter before the SBA OIG officially referred the case to the SBA.
Under Federal debarment procedures, when more than one agency has an interest in pursuing a debarment, those agencies confer and deter-
mine which agency will take the action.

* *Some of these referrals have been pending for more than six months. As of March 31, 2014, the SBA had initiated action, or had some form of
exclusion in place, on 33 of the 58 pending referrals from the OIG.




                                                                     27
Appendix I: OIG Reports Issued
October 1, 2013-March 31, 2014


                                     Small Business Access to Capital


                                                      Report        Issue      Questioned    Funds for
                       Title
                                                      Number        Date         Costs       Better Use

Improvement is Needed to Ensure Effective Quality
                                                          14-08   1/17/2014        $0            $0
Control at Loan Operation Centers
Purchase Reviews Allowed $3.1 Million in Improper
                                                          14-09   1/29/2014     $3,056,552       $0
Payments on 7(a) Recovery Act Loans

                Program Subtotal                            2                  $3,056,552       $0




                                           Agency Management


                                                     Report         Issue      Questioned    Funds for
                       Title
                                                     Number         Date         Costs       Better Use
The SBA’s FY 2012 Reported Improper Payment Rate
for Disbursements and Contracting was Inaccurate          14-02   10/24/2013     $235,672        $0
and Incomplete
Audit of SBA’s FY 2013 Financial Statements
                                                          14-04   12/16/2013        $0           $0
dated 11/16/13
Audit of SBA’s FY 2013 Special-Purpose Financial
                                                          14-05   12/17/2013        $0           $0
Statements dated 11/16/13
Management Letter – SBA’s FY 2013 Financial State-
                                                          14-07   1/15/2014         $0           $0
ments Audit

The SBA Did Not Follow Regulations and Guidance           14-10   2/12/2014         $0           $0

                Program Subtotal                            5                    $235,672        $0




                                                     28
                   Small Business Development, Contracting, Education and Training


                                                      Report        Issue      Questioned   Funds for
                      Title
                                                      Number        Date         Costs      Better Use
Opportunities Exist to Further Improve Quality and
                                                          14-03   11/19/2013       $0           $0
Timeliness of HUBZone Certifications

Program Subtotal                                            1                      $0           $0




                                             Disaster Loans


                                                                                            Funds for
                                                      Report        Issue      Questioned
                      Title                                                                  Better
                                                      Number        Date         Costs
                                                                                              Use
Two Economic Injury Disaster Loans Defaulted
After the SBA Made Approval Decisions Totaling
                                                          14-06   12/20/2013       $0          $0
$1.4 Million without Mitigating the Reasons for
Prior Denials
Program Subtotal                                            1                      $0          $0
TOTALS (All Programs)                                      9                   $3,292,224      $0




                                                     29
Appendix II: Reports
With Questioned Costs


                                                                                                Questioned             Unsupported
                                               Reports         Recommendations*
                                                                                                 Costs**                 Costs***
       No management
A.     decision made by                             2                       8                   $6,340,544A             $1,730,560A
       September 30, 2013
       Issued during this report-                   2                       5                    $3,292,224                     $362
B.
       ing period
       Universe from which
       management decisions
       could be made in this                       4                        13                   $9,632,768              $1,730,922
       reporting period –
       Subtotals
       Management decision(s)
C.     made during this report-                     3                       11                   $7,902,208                     $362
       ing period^
       (i) Disallowed costs                        0                        0                    $7,902,208                     $362

       (ii) Costs not disallowed                   0                        0                          0                         0
       No management
D.     decision made by                             1                       2                    $1,730,560              $1,730,560
       March 31, 2014
  * Reports may have more than one recommendation.
 ** Questioned costs are those that are found to be improper.
*** Unsupported costs may be proper, but lack documentation. Unsupported costs are a subset of questioned costs.
  A
    The numbers in these cells represent reclassification of previously reported amounts from questioned/unsupported costs to
     recommended funds for better use.
  ^ The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.




                                                                    30
Appendix III: Reports
With Recommendations that Funds Be Put to Better Use


                                                                                                             Recommended
                                                        Reports         Recommendations*                    Funds For Better
                                                                                                                  Use
        No management decision made
 A.                                                          3                        7                                $89,800,000
        by September 30, 2013**
        Issued during this reporting
 B.     period                                               0                        0                                             $0

        Universe from which management
        decisions could be made in this                      3                        7                                 $89,800,000
        reporting period – Subtotals
        Management decision(s) made dur-
 C.                                                          3                        7                                 $89,800,000
        ing this reporting period
        (i)    Recommendations agreed to
                                                             3                        7                                $89,800,000^
               by SBA management
        (ii) Recommendations not agreed
             to by SBA                                       0                        0                                             $0
             management
        No management decision made
 D.                                                          0                        0                                             $0
        by March 31, 2014
 * Reports may have more than one recommendation.
** The numbers in these cells represent reclassification of amounts previously reported as questioned/unsupported costs to recommended
    funds for better use.
  ^
    For one recommendation management has agreed to the recommendation but has not made a final decision on the full amount of funds for
    better use. The dollars shown are the amounts reported to management. The actual amounts may change during final resolution




                                                                  31
Appendix IV: Reports
With Non-Monetary Recommendations




                                                                                                Reports            Recommendations

  A.     No management decision made by September 30, 2013*                                          14                     42**

  B.     Issued during this reporting period                                                          7                     55
         Universe from which management decisions could be made
                                                                                                     21                     97
         in this reporting period – Subtotals
         Management decision(s) made (for at least one recommen-
  C.                                                                                                 12                     40
         dation in the report) during this reporting period

  D.          No management decision made by March 31, 2014*                                         12                     55

 * Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have
   recommendations that fall under both C. & D.
** Information is different from what was previously reported due to database corrections.




                                                                      32
Appendix V: Reports
From Prior Periods with Overdue* Management Decisions**

                                                             Report            Date
                          Title                                                                           Status
                                                             Number           Issued

SBA's Funding of Information Technology Con-                                               Management has not responded to
                                                                 11-14        6/2/2011
tracts Awarded to ISIKA Technologies, Inc.                                                 one recommendation in the report.

Small Business Administration’s Rationale for
Excluding Certain Types of Contracts from the                                              Management has not responded to
                                                                 12-04        12/6/2011
Annual Small Business Procurement Calcula-                                                 five recommendations in the report.
tions Needs to be Documented
The Small Business Administration's Improper
                                                                                           Management has not responded to
Payment Rate for 7(a) Guaranty Purchases Re-                     13-07        11/15/2012
                                                                                           two recommendations in the report.
mains Significantly Underestimated
The SBA Mismanaged Certain 8(a) Information                                                Management has not responded to
                                                                 13-08        2/3/2012
Technology Contracts                                                                       two recommendations in the report.

The SBA’s Loan Management and Accounting                                                   Management has not responded to
                                                                 13-11        3/12/2013
System Incremental Improvement Projects                                                    two recommendations in the report.
SBA’s Inappropriate Contracting Practices to
                                                                                           Management has not responded to
reconfigure Space for the Office of International                13-12        3/26/2013
                                                                                           one recommendation in the report.
Trade
The SBA’s 417 Unauthorized Commitments Im-
                                                                                           Management has not responded to
pacted Mission-Related Services and Increased                    13-14         3/28/13
                                                                                           three recommendations in the report.
Costs
Evaluation of SBA’s Implementation of the                                                  Management has not responded to
                                                                 13-19        9/27/2013
GPRA Modernization Act of 2010                                                             one recommendation in the report.
                                                                                           Management has not responded to
Evaluation of SBA 2012 Cash Gifts                                13-20        9/26/2013
                                                                                           one recommendation in the report.
SBA’s Enterprise-wide Controls Over Cospon-                                                Management has not responded to
                                                                 13-21        9/26/2013
sored Activities                                                                           two recommendations in the report.
Improved Examination Quality Can Strengthen
                                                                                           Management has not responded to
SBA’s Oversight of Small Business Investment                     13-22        9/30/2013
                                                                                           three recommendations in the report.
Companies
*“Overdue” is defined as more than 180 days from the date of issuance.
**Overdue as of March 31, 2014.




                                                                         33
Appendix VI: Reports
Without Final Action as of March 31, 2014
                                                                         Final
                                                    Date of                                   Explanation as
Report                               Date                               Action
                    Title                         Management                                   Submitted in
Number                              Issued                              Target
                                                   Decision*                                    FY 2013 AFR
                                                                        Date**

                                                                                  The two recommendations remaining
                                                                                  open are to the Office of the Chief Finan-
                                                                                  cial Officer (OCFO) to revise, clear and
                                                                                  issue the draft SOP 00 02 3 and clearly
              Audit of
                                                                                  define material weakness as it relates to
              SBA's Process
                                                                                  SBA and at the different levels of man-
              for Comply-
                                                                                  agement within the Agency. The current
              ing with the
                                                                                  SOP was substantially rewritten in FY
    4-34      Federal Man-         7/29/04            9/9/04            6/30/13
                                                                                  2013; however, it was not completed due
              agers' Finan-
                                                                                  to the Office of Management and Budg-
              cial Integrity
                                                                                  et’s announcement that their guidance
              Act Reporting
                                                                                  will be updated in FY 2014 to align with
              Requirements
                                                                                  the GAO’s new guidance in the Green
                                                                                  Book. The anticipated completion date is
                                                                                  9/30/14, dependent on the issue date of
                                                                                  OMB’s new guidance.

                                                                                  There is one open recommendation to
                                                                                  the Office of the Chief Financial Officer
                                                                                  to update the accounting SOP to include
                                                                                  SBA’s policies and procedures to reflect
                                                                                  the GL accounts and data field updated
                                                                                  for each transaction. The accounting Pro
              FY 2005                                                             forma on LAS transactions is available in
              Financial                                                           “table format” in the CGL, but data field
    6-10      Statements -          1/18/06           3/7/06            9/30/13   updates are not shown. SBA will work
              Management                                                          with OCA to develop this documentation
              Letter                                                              through an automated process. Work on
                                                                                  this project will not start until FY 2014
                                                                                  after the OCA/OCIO completion of the
                                                                                  Loan Management and Accounting Sys-
                                                                                  tem project. This audit recommendation
                                                                                  is expected to have a final action by
                                                                                  09/30/2014.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   34
                                                                         Final
                                                         Date of                              Explanation as
 Report                                     Date                        Action
                        Title                          Management                              Submitted in
 Number                                    Issued                       Target
                                                        Decision*                               FY 2013 AFR
                                                                        Date**

                                                                                   One recommendation remains open
                                                                                   to the Office of Capital Access
                                                                                   (OCA) to establish risk mitigation
                                                                                   goals applicable to each loan pro-
                                                                                   gram and the entire lending portfo-
                                                                                   lio. OCA will develop program level
                                                                                   performance benchmarks and risk
                                                                                   mitigation goals for each 7(a) loan
                                                                                   program and the entire 7(a) portfo-
                Oversight of
                                                                                   lio based on OCRM’s PARRiS frame-
    8-12        SBA Supervised             5/9/08         6/20/08       12/31/14
                                                                                   work. The PARRiS assessment sys-
                Lenders                                                            tem is designed to measure the level
                                                                                   of risk at the lender, program and
                                                                                   portfolio level. The program and
                                                                                   portfolio risk mitigation goals will
                                                                                   focus on Performance, Asset man-
                                                                                   agement and Regulatory perfor-
                                                                                   mance – utilizing the current met-
                                                                                   rics framework. Expected comple-
                                                                                   tion of this final action is 12/31/2014.
                                                                                   The two open recommendations are
                                                                                   to the Office of Financial Assistance
                                                                                   to reinforce the importance of
                                                                                   the collateral analysis in an updated
                                                                                   SOP and ensure the revised Disaster
                Audit of SBA’s
                                                                                   Loan SOP identifies procedures re-
                Fiscal Year 2008
                                                                                   lated to the disposition of collateral.
                Financial State-
   9-05                                   12/17/08         2/18/09      12/31/13   OFPO issued a collateral release
                ments –
                                                                                   memorandum to staff in June 2011
                Management
                                                                                   reinforcing this information. SOP
                Letter
                                                                                   50 52 in final draft and is being pre-
                                                                                   pared for Agency Clearance by the
                                                                                   end of the calendar year. The final
                                                                                   action due date for this recommen-
                                                                                   dation is 12/31/13.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   35
                                                                         Final
                                                        Date of                             Explanation as
Report                                    Date                          Action
                      Title                           Management                             Submitted in
Number                                   Issued                         Target
                                                       Decision*                              FY 2013 AFR
                                                                        Date**

                                                                                  The remaining recommendation for
                                                                                  this audit is to the Office of the Ad-
                                                                                  ministrator to require the LMAS
               Adequacy of
                                                                                  Quality Assurance plan to incorpo-
               Quality Assur-
                                                                                  rate all the components required by
               ance Oversight of
                                                                                  the enterprise-wide QA plan. The
    10-14      the Loan Man-             9/13/10          10/21/10      6/13/10
                                                                                  ITQA SOP was updated and SBA has
               agement and
                                                                                  demonstrated significant progress in
               Accounting Sys-
                                                                                  implementing a quality assurance
               tem Project
                                                                                  process by conducting QA reviews.
                                                                                  The expected final action is expected
                                                                                  by September 2014.
                                                                                  The remaining recommendation on
                                                                                  this audit is to the Office of Capital
                                                                                  Access to require the lenders have
                                                                                  25 purchased loans to bring the
               Material Defi-                                                     loans into compliance or recover the
               ciencies Identi-                                                   $375,259 in paid guaranties. Twenty
               fied in Early-                                                     -four out of 25 loans have been re-
    ROM
               Defaulted and            9/24/10            4/1/11       1/31/13   solved. The final loan is currently in
    10-19
               Early-Problem                                                      the dispute resolution process and a
               Recovery Act                                                       decision is being reviewed by the
               Loans                                                              Office of Financial Assistance to
                                                                                  ensure policy compliance. Once the
                                                                                  review is completed, a determina-
                                                                                  tion on the loan and potential repair
                                                                                  will be instated.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   36
                                                                         Final
                                                        Date of                             Explanation as
Report                                    Date                          Action
                      Title                           Management                             Submitted in
Number                                   Issued                         Target
                                                       Decision*                              FY 2013 AFR
                                                                        Date**

                                                                                  The eight recommendations are to
                                                                                  the Office of the Chief Information
                                                                                  officer to (1) require an updated list
                                                                                  of Major Systems and their interfac-
                                                                                  es; (2) manage, control, and monitor
                                                                                  system interconnections throughout
                                                                                  their lifecycle; (3) develop configura-
                                                                                  tion management policies and pro-
                                                                                  cedures; (4) develop and maintain a
                                                                                  centralized inventory of all Agency
                                                                                  hardware and software; (5) develop
                                                                                  and document baseline configura-
                                                                                  tion for each information system;
                                                                                  and (6) develop and test disaster
                                                                                  recovery plans. Status for these rec-
                                                                                  ommendations include (1) A total
                                                                                  count of all interconnections was
                                                                                  completed and Interconnection Ser-
              Weaknesses
                                                                                  vice Agreements (ISAs) for FISMA-
              Identified During
    11-06                                1/28/11           3/28/11      9/30/11   reportable systems are being ob-
              the FY 2010 FIS-
                                                                                  tained. Estimated completion of the
              MA Review
                                                                                  final action is 9/30/14. (2) SOP 90 47
                                                                                  3, published 10/10/12, requires sys-
                                                                                  tem owners to manage system inter-
                                                                                  connections in accordance with
                                                                                  NIST requirements. SBA personnel
                                                                                  had one year to implement the re-
                                                                                  quirements of the SOP. OCIO is
                                                                                  working with the OIG to close this
                                                                                  recommendation. The final action
                                                                                  completion date is estimated to be
                                                                                  12/31/13. (3) Configuration Manage-
                                                                                  ment policy is being developed to
                                                                                  incorporate enterprise change con-
                                                                                  trol. The final action completion
                                                                                  date is estimated to be 9/30/13. (4)
                                                                                  An enterprise-wide asset manage-
                                                                                  ment tool will be procured to cen-
                                                                                  trally manage assets.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   37
                                                                         Final
                                                         Date of                            Explanation as
 Report                                   Date                          Action
                      Title                            Management                            Submitted in
 Number                                  Issued                         Target
                                                        Decision*                             FY 2013 AFR
                                                                        Date**

                                                                                  (5) A gap analysis was conducted to
                                                                                  determine which applications need
                                                                                  to have a baseline established. A
                                                                                  project is underway to establish
                                                                                  baselines for all systems agency
                                                                                  hardware and software. Final action
                                                                                  completion is estimated to be
                                                                                  9/30/14. (6) For externally hosted
                                                                                  moderate impact and high-impact
                                                                                  systems, disaster recovery tests were
                                                                                  performed. There currently is no
                                                                                  disaster recovery solution for inter-
                                                                                  nally-hosted systems and therefore
                                                                                  only table top tests were performed.
                                                                                  A solution is being identified to
                                                                                  meet the disaster recovery tests per
                                                                                  NIST requirements. The final com-
                                                                                  pletion date is estimated to be
                                                                                  9/30/14.
                                                                                  The recommendation is to the
                                                                                  Office of Capital Access to revise the
                                                                                  SOP to provide detailed instructions
                                                                                  for processing insurance recovery
                                                                                  checks. OFPO developed and issued
               Processing of
                                                                                  a duplication and benefits logic tree
               Insurance Recov-
                                                                                  and narrative to assist in the pro-
    11-07      ery Checks at the         2/10/11           4/7/11       6/30/14
                                                                                  cessing of insurance recovery
               Disaster Loan
                                                                                  checks. Additionally, SOP 50 52 in
               Servicing Centers
                                                                                  final draft and is being prepared for
                                                                                  Agency Clearance by the end of the
                                                                                  calendar year. The final action due
                                                                                  date for this recommendation is
                                                                                  12/31/13.

* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   38
                                                                         Final
                                                         Date of                           Explanation as
    Report                                Date                          Action
                       Title                           Management                           Submitted in
    Number                               Issued                         Target
                                                        Decision*                            FY 2013 AFR
                                                                        Date**
                                                                                 The six recommendations are to the
                                                                                 Office of the Chief Financial Officer
                                                                                 to determine if awards were made or
                                                                                 funds should be de-obligated on 66
                                                                                 purchase requisitions; to perform
                                                                                 routine reconciliation of executed
                                                                                 awards to FPDS-NG.gov; to deploy
                                                                                 an independent statistical verifica-
                                                                                 tion and validation of all SBA trans-
                                                                                 actions; to determine if Recovery
                                                                                 Act funds were used to fund 13 con-
                                                                                 tracts; to develop a data quality
               Quality of SBA's
                                                                                 plan; and to monitor contractor re-
     ROM       Recovery Act
                                         3/22/11           10/6/11        **     ported information and prime con-
     11-04     Data on Public
                                                                                 tractor information for accuracy.
               Websites
                                                                                 The OCFO is researching data to
                                                                                 resolve the contract funding issues
                                                                                 and is developing procedures to en-
                                                                                 sure data accuracy in the future.
                                                                                 The independent verification and
                                                                                 validation of SBA transactions and
                                                                                 the revision of the data quality plan
                                                                                 have been implemented; follow-up
                                                                                 with the OIG should close these
                                                                                 issues. Final actions for all recom-
                                                                                 mendations are estimated to be
                                                                                 9/30/14.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   39
                                                                         Final
                                                         Date of                             Explanation as
    Report                                Date                          Action
                       Title                           Management                             Submitted in
    Number                               Issued                         Target
                                                        Decision*                              FY 2013 AFR
                                                                        Date**
                                                                                   The two recommendations are to
                                                                                   the Office of Financial Programs to
                                                                                   (1) develop record designation re-
                                                                                   quirements for all loan servicing
                                                                                   documents and incorporate the
                                                                                   guidance into SOP 50 52 and (2) to
                                                                                   revise the SOP to preserve the anal-
                                                                                   yses performed to conduct all servic-
                                                                                   ing actions. (1) Electronic record-
               Management
                                                                                   keeping guidelines internal desk
               Advisory Report
                                                                                   document was developed and issued
               on Records Man-
                                                                                   to center personnel in February
               agement and
     11-10                               3/29/11           6/20/11      6/30/14    2012. Additionally, SOP 50 52 in final
               Documentation
                                                                                   draft and is being prepared for
               Process at the
                                                                                   Agency Clearance by the end of the
               Disaster Loan
                                                                                   calendar year. The final action due
               Servicing Centers
                                                                                   date for this recommendation is
                                                                                   12/31/13. (2) A memorandum was
                                                                                   issued to staff and has been rein-
                                                                                   forced with training. Additionally,
                                                                                   SOP 50 52 in final draft and is being
                                                                                   prepared for Agency Clearance by
                                                                                   the end of the calendar year. The
                                                                                   final action due date for this recom-
                                                                                   mendation is 12/31/13.

                                                                                   The two remaining recommenda-
                                                                                   tions are to the Office of the Chief
                                                                                   Financial Officer and require a re-
                                                                                   view of funding to ensure SBA did
                                                                                   not violate the Anti-Deficiency Act
               SBA's Funding of
                                                                                   during a Continuing Resolution in
               Information
                                                                                   2011 and a review of SBA’s funding
               Technology Con-
     11-14                                6/2/11            8/1/11      12/31/11   procedures. The OCFO is research-
               tracts Awarded
                                                                                   ing the funding issue to ensure
               to ISIKA Tech-
                                                                                   funds were not inappropriately obli-
               nologies, Inc.
                                                                                   gated and will review written poli-
                                                                                   cies and procedures to ensure work
                                                                                   is performed in compliance with the
                                                                                   FAR. Final action completion date is
                                                                                   estimated to be 9/30/14.

* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   40
                                                                         Final
                                                        Date of                           Explanation as
    Report                               Date                           Action
                      Title                           Management                           Submitted in
    Number                              Issued                          Target
                                                       Decision*                            FY 2013 AFR
                                                                        Date**

                                                                                 Explanation: The six open recom-
                                                                                 mendations are to the Office of
                                                                                 the Chief Information Officer
                                                                                 and require (1) coordination with
                                                                                 SBA program offices to enhance
                                                                                 security vulnerability manage-
                                                                                 ment processes; (2) prevent users
                                                                                 from connecting unauthorized
                                                                                 devices by implementing manda-
                                                                                 tory domain authentication for
                                                                                 Internet Protocol address issu-
                                                                                 ance; (3) ensure that information
                                                                                 systems hosted by third parties
                                                                                 comply with SBA policy and
                                                                                 NIST guidance; (4) Oversee the
                                                                                 review and validation of financial
                                                                                 system accounts quarterly; (5)
                                                                                 monitor the audit logs of all fi-
                                                                                 nancial applications regularly;
               Independent
                                                                                 and (6) create, implement, and
               Auditors' Report
                                                                                 test system specific and the HQ
     12-02     on the SBA's FY          11/14/11         12/22/11         **
                                                                                 COOP. Resolution activities in-
               2011 Financial
                                                                                 clude (1) OCIO hired contractors
               Statements
                                                                                 to assist in the security manage-
                                                                                 ment process; estimated comple-
                                                                                 tion date is 9/30/14; (2) (3) The
                                                                                 802.1x solution has been fully
                                                                                 implemented and the OCIO is
                                                                                 working with the OIG to close
                                                                                 this recommendation. Estimated
                                                                                 completion date is 12/31/13. (4)
                                                                                 Remediation activities are in pro-
                                                                                 cess. Estimated completion date
                                                                                 is 9/30/14. (5) A project is under-
                                                                                 way to implement a centralized
                                                                                 audit logging tool. Procedures
                                                                                 will be developed to periodically
                                                                                 review system audit logs. Esti-
                                                                                 mated completion date is 9/15/15.
                                                                                 (6) Remediation activities are in
                                                                                 process. Estimated completion
                                                                                 date is 9/30/14.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.


                                                                   41
                                                                         Final
                                                        Date of                            Explanation as
    Report                                Date                          Action
                       Title                          Management                            Submitted in
    Number                               Issued                         Target
                                                       Decision*                             FY 2013 AFR
                                                                        Date**

                                                                                   The two remaining recommenda-
                                                                                   tions are to the Office of Capital
                                                                                   Access and require that (1) loan
                                                                                   officers evaluate the creditwor-
                                                                                   thiness of borrowers on early
                                                                                   default loans during the purchase
               FY 2011 Review of
                                                                                   and improper payment review
     12-10     SBA’s Improper            3/15/12          5/15/12       4/30/14
                                                                                   processes; and (2) OCA conduct
               Payments
                                                                                   a cost/benefit analysis for pay-
                                                                                   ment recapture audits of 7(a)
                                                                                   purchases. For (1) OCA made
                                                                                   improvements to the purchase
                                                                                   checklist but OIG identified addi-
                                                                                   tional items.

                                                                                   The two remaining recommenda-
                                                                                   tions are to the Office of Capital
                                                                                   Access and require that (1) a loan
                                                                                   be reviewed for potential recov-
               High-Dollar Ear-                                                    ery of $1,330,708 plus interest;
               ly-Defaulted                                                        and (2) trained loan specialists
               Loans Require an                                                    perform purchase reviews on
               Increased Degree                                                    early defaulted loans above the
               of Scrutiny and                                                     purchase amount of $500,000.
     12-11R                             3/23/12            9/4/13       12/31/13
               Improved Quali-                                                     The loan in (1) is currently in
               ty Control at the                                                   review by portfolio management
               National Guar-                                                      and undergoing the dispute reso-
               anty Purchase                                                       lution process. For (2) OFPO
               Center                                                              agreed to modify its process and
                                                                                   will incorporate repayment abil-
                                                                                   ity guidance as indicated in the
                                                                                   new issuance SOP 50-10 5F, effec-
                                                                                   tive January 1, 2014.

* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   42
                                                                         Final
                                                        Date of                           Explanation as
    Report                                Date                          Action
                       Title                          Management                           Submitted in
    Number                               Issued                         Target
                                                       Decision*                            FY 2013 AFR
                                                                        Date**
                                                                                  The remaining recommendation
                                                                                  is to the Office of General Coun-
                                                                                  sel and recommends collabora-
                                                                                  tion with the Offices of Strategic
                                                                                  Alliances and the Chief Financial
                                                                                  Officer to issue SOP 90.53. OIG
                                                                                  recommends four specific in-
               Review of the
     12-13                              3/30/12           6/19/12       6/30/13   clusions to SBA’s policies and
               SBA’s Cash Gifts
                                                                                  procedures. The SOP was com-
                                                                                  pleted for review in November
                                                                                  2012; OGC is now evaluating the
                                                                                  comments to ensure compliance
                                                                                  with various laws and policies.
                                                                                  Estimated completion date is
                                                                                  9/30/14.
                                                                                  The four recommendations are
                                                                                  to the Office of Capital Access
                                                                                  and recommends that (1) specific
                                                                                  actions be taken for loans over
                                                                                  180 days delinquent that are se-
                                                                                  cured by collateral; (2) immedi-
                                                                                  ately charge-off loans over 180
                                                                                  days delinquent not secured by
                                                                                  collateral; 3) Update SOP’s to
                                                                                  include Debt Collection Im-
               The Small Busi-
                                                                                  provement Act and Treasury
               ness Administra-
                                                                                  Managing Federal Receivables
               tion did not
                                                                                  Guide requirements; and (4) pro-
               Maximize Recov-
                                                                                  vide training on DCIA and Treas-
     12-14     ery for $171.1 Mil-       7/2/12               *           **
                                                                                  ury’s guide. OCA is currently
               lion in Delin-
                                                                                  working with the Department of
               quent Disaster
                                                                                  Treasury to develop a process for
               Loans In Liqui-
                                                                                  referring collateralized debt un-
               dation
                                                                                  der a new Agency Profile that
                                                                                  will allow SBA to maintain com-
                                                                                  promise authority. Training in
                                                                                  DCIA has been provided and will
                                                                                  be again, in addition to training
                                                                                  provided by the Department of
                                                                                  Treasury. Additionally, SOP 50
                                                                                  52, which provides DCIA guid-
                                                                                  ance, is in its final draft form.
                                                                                  Estimated completion is 12/31/13.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.


                                                                   43
                                                                              Final
                                                               Date of                     Explanation as
    Report                                     Date                          Action
                          Title                              Management                     Submitted in
    Number                                    Issued                         Target
                                                              Decision*                      FY 2013 AFR
                                                                             Date**
                                                                                      The three remaining rec-
                                                                                      ommendations are to the
                                                                                      Office of the Chief Infor-
                                                                                      mation Officer and re-
                                                                                      quire (1) development of
                                                                                      an overall strategy to im-
                                                                                      plement OIG recommen-
                                                                                      dations on FISMA securi-
                                                                                      ty requirements; (2) per-
                                                                                      form recertification re-
                                                                                      views of agency general
                                                                                      support systems or design
                                                                                      compensating       controls;
                                                                                      and (3)        continuously
                 Weaknesses Identi-
                                                                                      monitor remote access
                 fied During the FY
                                                                                      audit logs for unauthor-
                 2011 Federal Infor-
     12-15                                    7/16/12              8/16/12     **     ized activity. OCIO will
                 mation Security
                                                                                      (1) hold weekly meetings
                 Management Act
                                                                                      to prioritize and monitor
                 Review
                                                                                      remediation progress on
                                                                                      OIG      recommendations
                                                                                      and provide a report to
                                                                                      the CIO; (2) perform
                                                                                      recertification reviews for
                                                                                      users of the general sup-
                                                                                      port systems; and (3) im-
                                                                                      plement a process to re-
                                                                                      view VPN logs on an on-
                                                                                      going basis to timely
                                                                                      identify and mitigate un-
                                                                                      authorized activity. Esti-
                                                                                      mated completion date is
                                                                                      9/30/14.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   44
                                                                              Final
                                                              Date of                      Explanation as
    Report                                     Date                          Action
                          Title                             Management                      Submitted in
    Number                                    Issued                         Target
                                                             Decision*                       FY 2013 AFR
                                                                             Date**
                                                                                      The two recommenda-
                                                                                      tions are to the Office of
                                                                                      the     Chief      Financial
                                                                                      Officer and require that
                                                                                      purchase        cardholders
                                                                                      have current delegation
                The Small Business                                                    letters that reflect limita-
                Administration's                                                      tions and approving offi-
                Inappropriate Use                                                     cials and that training be
     12-16      of the Government             8/6/12               9/11/12     **     provided by OCFO on the
                Purchases Card for                                                    proper use of government
                Construction                                                          purchase cards to include
                Purchases                                                             the definition of construc-
                                                                                      tion. The OCFO has com-
                                                                                      pleted both actions and
                                                                                      will work with the OIG to
                                                                                      close these recommenda-
                                                                                      tions. Estimated comple-
                                                                                      tion date is 4/30/14.
                                                                                      The three recommenda-
                                                                                      tions are to the Office of
                                                                                      Capital Access and re-
                                                                                      quire (1) revision of the
                                                                                      purchase process to verify
                                                                                      lender’s compliance with
                                                                                      SBA’s repayment ability
                                                                                      requirements; (2) training
                A Detailed Repay-                                                     of purchase staff on re-
                ment Ability Analy-                                                   payment ability require-
                sis is Needed on                                                      ments; and (3) perform a
     12-18      High-Dollar Early-           8/16/12                    *      **     cost/benefit analysis for
                Defaulted Loans to                                                    detailed reviews of early
                Prevent Future Im-                                                    defaulted loans of less
                proper Payments                                                       than $500,000. OFPO
                                                                                      agreed to modify the pro-
                                                                                      cess and incorporate re-
                                                                                      payment ability guidance
                                                                                      as indicated in the SOP 50
                                                                                      -10 5F, effective January 1,
                                                                                      2014. The estimated com-
                                                                                      pletion date is March 31,
                                                                                      2014.
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   45
                                                                               Final
                                                              Date of                        Explanation as
    Report                                     Date                           Action
                          Title                             Management                        Submitted in
    Number                                    Issued                          Target
                                                             Decision*                         FY 2013 AFR
                                                                              Date**
                                                                                        OFPO will also produce a
                                                                                        determination on the
                                                                                        funds for better use calcu-
                                                                                        lation developed by the
                                                                                        OIG. In addition, staff is
                                                                                        being trained with a com-
                                                                                        pletion date of 11/30/13.
                                                                                        Further, a risk assessment
                                                                                        is being performed with a
                                                                                        completion date of 11/5/13.
                                                                                        The two recommenda-
                                                                                        tions are to the Office of
                                                                                        the Chief Financial
                                                                                        Officer and require that a
                                                                                        review of previously rati-
                                                                                        fied unauthorized com-
                                                                                        mitments and remaining
                The SBA’s Ratifica-                                                     ratification actions for
                tion Process Could                                                      Anti-Deficiency Act viola-
     12-22      Lead to Possible             9/28/12               10/12/12   3/31/13   tions. The OCFO re-
                Anti-Deficiency Act                                                     viewed the ratified com-
                Violations                                                              mitments and confirmed
                                                                                        that no Anti-Deficiency
                                                                                        violations occurred. The
                                                                                        OCFO is working with the
                                                                                        OIG to close these recom-
                                                                                        mendations. Anticipated
                                                                                        completion date is
                                                                                        4/30/14.

                Benefits of Mentor
                Protégé Joint Ven-
                tures are Un-
                known: Robust
     13-03                                   10/23/12              1/24/13    9/30/13   Not Reported in AFR
                Oversight is Need-
                ed to Avoid Abuse
                and Assure Suc-
                cess

* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                   46
                                                                              Final
                                                              Date of                      Explanation as
    Report                                    Date                           Action
                          Title                             Management                      Submitted in
    Number                                   Issued                          Target
                                                             Decision*                       FY 2013 AFR
                                                                             Date**
                Independent Audi-
                tor's Report on the
     13-04                                   11/14/12                   *      **      Not Reported in AFR
                SBA's FY 2012 Fi-
                nancial Statements
                The Small Business
                Administration's
                Improper Payment
     13-07      Rate for 7(a) Guar-          11/15/12              3/12/13   4/30/14   Not Reported in AFR
                anty Purchases Re-
                mains Significantly
                Underestimated
                The SBA Misman-
                aged Certain 8(a)
     13-08                                    12/3/12                   *      **      Not Reported in AFR
                Information Tech-
                nology Contracts
                Audit of the SBA’s
                FY 2012 Financial
     13-09                                   12/11/12                   *      **      Not Reported in AFR
                Statements - Man-
                agement Letter

                The SBA’s Loan
                Management and
     13-11      Accounting System             3/12/13                   *      **      Not Reported in AFR
                Incremental Im-
                provement Projects

                The SBA’s Portfolio
                Risk-Management
     13-17                                   7/2/2013          9/30/2013       **      Not Reported in AFR
                Program Can be
                Strengthened

                Purchase Reviews
                Allowed $4.6 mil-
                lion in Improper
    13-16R                                   6/14/13               3/28/14     **      Not Reported in AFR
                Payments on 7(a)
                Recovery Act
                Loans
                The SBA’s Portfo-
                lio Risk-
     13-17      Management Pro-               7/2/13               9/30/13   8/1/14    Not Reported in AFR
                gram Can be
                Strengthened
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.

                                                                   47
                                                                              Final
                                                              Date of                       Explanation as
    Report                                    Date                           Action
                         Title                              Management                       Submitted in
    Number                                   Issued                          Target
                                                             Decision*                        FY 2013 AFR
                                                                             Date**
                The SBA Did Not
                Effectively Manage
                Defaulted Disaster
     13-18                                   9/27/13               3/30/14   3/24/15    Not Reported in AFR
                Loans to Maximize
                Recovery From
                2006-2011
                SBA’s Enterprise-
                wide Controls
     13-21                                   9/26/13               1/23/14   12/12/14   Not Reported in AFR
                Over Cosponsored
                Activities
* Management decision dates vary with different recommendations.
**Target dates vary with different recommendations.




                                                                    48
Appendix VII: Significant Recommendations
From Prior Reporting Periods Without Final Action as of March 31, 2014

                                                                           Date of
 Report        Date                                                                   Final Action
                                     Recommendation                      Management
 Number       Issued                                                                  Target Date
                                                                          Decision
                        Revise the LMAS QA plan to incorporate all
   10-14      9/13/10   the components required by the enterprise-         10/21/10     6/13/10
                        wide QA plan.
                        Require the lenders to bring the 25 pur-
   ROM                  chased loans with material deficiencies into
              9/24/10                                                       4/1/11       1/31/13
   10-19                compliance and recover the $375,259 in guar-
                        anties paid.
                        Update the list of Major Systems to include
                        all the interfaces between each system and all
                        other systems and networks, including those
                        not operated by, or under the control of the
   11-06      1/28/11                                                      3/28/11      9/30/11
                        agency and obtain written Interconnection
                        Security Agreements for every SBA system
                        that has an interconnection to another sys-
                        tem.
                        Establish a program at SBA to manage, con-
                        trol and monitor system interconnections
                        throughout their lifecycle. The program
   11-06      1/28/11   should encompass planning, establishing,           3/28/11      9/30/11
                        maintaining, and terminating system inter-
                        connections, including enforcement of secu-
                        rity requirements.
                        Develop and maintain a centralized invento-
   11-06      1/28/11   ry of all agency hardware and software.            3/28/11      9/30/11

                        Research the $21,627,140 in this report to de-
                        termine whether the award has been made or
   ROM
              3/22/11   the funds should be deobligated. This re-          10/6/11      6/30/12
   11-04
                        search should result in these actions being
                        posted to FPDS.gov.
                        Deploy an independent statistical verification
   ROM
              3/22/11   and validation of all SBA transactions award-      10/6/11      6/30/12
   11-04
                        ed and subsequently reported to FPDS.gov.
                        Research the $695,157 in this report to deter-
                        mine the disposition of these awards and
   ROM                  whether Recovery Act funds were actually
              3/22/11                                                      10/6/11       1/31/12
   11-04                used to fund the awards. If not, these awards
                        need to be corrected in PRISM, FPDS.gov,
                        and the contract files.
                        Develop and implement a data quality plan
   ROM                  that documents processes to ensure timely,
              3/22/11                                                      10/6/11      6/30/12
   11-04                accurate, and complete submission of con-
                        tracts data to USASpending.gov.




                                                  49
                                                                        Date of
Report    Date                                                                     Final Action
                                 Recommendation                       Management
Number   Issued                                                                    Target Date
                                                                       Decision
                    Implement continuous monitoring procedures
                    to ensure that contractor-reported infor-
 ROM
         3/22/11    mation is correct and accurate, and that all        10/6/11      12/31/11
 11-04
                    prime contractors are accurately reporting the
                    use of subcontractors.
                    Develop record designation and retention
                    requirements for all loan servicing documents
                    and coordinate with the Office of Manage-
                    ment & Administration to incorporate this
 11-10   3/29/11                                                        6/20/11      6/30/14
                    guidance into SOP 50 52. The requirements
                    should specify which documents should be
                    designated as records, and therefore retained,
                    and for how long.
                    Revise SOP 50 52 to include a requirement to
                    preserve the analyses performed to conduct all
                    servicing actions. A summary of the analysis
                    should be present on the Form 327 and the
 11-10   3/29/11    detail of the analysis should accompany the         6/20/11      6/30/14
                    SBA Form 327 action. The analysis should
                    include sufficient detail to permit an outside
                    party, not connected with the transaction, to
                    verify the accuracy of the decision.
                    Establish procedures to discontinue SBA's
 11-14   6/2/11     practice of inappropriately obligating funds on      8/1/11      12/31/11
                    contracts in anticipation of future needs.
                    Recommend the CIO coordinate with the SBA
                    program offices to enhance security vulnera-
                    bility management processes. Specifically, the
                    SBA should: (a) redistribute procedures and
                    train employees on the process for reviewing
                    and mitigating security vulnerabilities, (b)
                    periodically monitor the existence of unneces-
                    sary services and protocols running on their
                    servers and network devices, (c) perform vul-
                    nerability assessments with administrative
 12-02   11/14/11   credentials and penetration tests on all SBA        12/22/11      3/31/12
                    offices from a centrally managed location with
                    a standardized reporting mechanism that al-
                    lows for trending, on a regularly scheduled
                    basis in accordance with NIST guidance, (d)
                    develop a more thorough approach to track
                    and mitigate configuration management vul-
                    nerabilities identified during monthly scans,
                    and (e) monitor security vulnerability reports
                    for necessary or required configuration chang-
                    es to their environment.

                                               50
                                                                            Date of
Report       Date                                                                       Final Action
                                     Recommendation                       Management
Number      Issued                                                                      Target Date
                                                                           Decision
                       Coordinate with SBA program offices to ensure
                       that information systems hosted by third par-
 12-02      11/14/11                                                        12/22/11      9/29/12
                       ties comply with SBA policy and NIST guid-
                       ance.
                       Coordinate with SBA program offices to over-
 12-02      11/14/11   see the review and validation of financial sys-      12/22/11       4/30/12
                       tem accounts on a quarterly basis.
                       Coordinate with SBA program offices to imple-
 12-02      11/14/11   ment a process to monitor the audit logs of all      12/22/11       3/30/12
                       financial applications on a regular basis.
                       Revise the Goaling Guidelines for the Small
                       Business Preference Programs to include con-
                                                                                       Target date not
 12-04      12/16/11   tracts awarded and/or performed overseas in         Overdue
                                                                                        established.
                       the small business goaling baseline beginning
                       with fiscal year 2011.
                       Require loan officers to thoroughly evaluate
                       creditworthiness (including repayment ability)
 12-10      3/15/12                                                         5/15/12       4/30/14
                       on early default loans during both guaranty
                       purchase and improper payment reviews
                       Upon completing the revised improper pay-
                       ment rate projection for 7(a) purchases, con-
 12-10      3/15/12    duct a detailed and objective cost/benefit anal-     9/26/12        10/4/13
                       ysis for payment recapture audits of 7(a) pur-
                       chases.
                       Establish a specialized unit of well-trained,
                       highly experienced loan specialists to perform
                       purchase reviews with the level of scrutiny
 12-11R   3/23/12                                                           10/19/12       5/30/14
                       necessary to identify all material deficiencies
                       on early-defaulted loans approved for $500,000
                       or more.




                                                   51
                                                                            Date of
Report     Date                                                                         Final Action
                                   Recommendation                         Management
Number    Issued                                                                        Target Date
                                                                           Decision
                    Take the following actions for disaster loans in
                    liquidation status delinquent over 180 days that
                    are secured by collateral, but not specifically
                    exempt from referral to Treasury:
                    • Evaluate whether prompt foreclosure is feasi-
                       ble.
 12-14   7/2/12     • Initiate foreclosure proceedings promptly on          3/31/14       3/24/15
                       loan collateral for which the NDLRC has de-
                       termined that foreclosure is feasible.
                    • Charge off loans for which the NDLRC has
                       determined that foreclosure on the collateral
                       is not feasible and ensure transfer of the debts
                       to Treasury FMS for cross servicing.
                    Immediately charge off all disaster loans in liqui-
                    dation status delinquent over 180 days and not
 12-14   7/2/12                                                             3/31/14       3/24/15
                    secured by collateral, or specifically exempt from
                    referral to Treasury.
                    Develop an overall strategy to timely implement
 12-15    7/16/12   audit recommendations issued by the the OIG             8/16/12       10/30/12
                    relating to FISMA security requirements.
                    Direct the NGPC to revise its purchase process
                    for high-dollar early-defaulted loans approved
                    by lenders to verify compliance with SBA’s re-                     Target date not
 12-18    8/16/12                                                          Overdue
                    payment ability requirements, including the                         established.
                    performance of a detailed analysis of the lenders’
                    computation of repayment ability.
                    Develop specific, measurements (outputs and
 13-03   10/23/12   outcomes) to evaluate benefits of the joint ven-        1/24/13        9/30/13
                    ture agreements to the protégé.
                    Ensure that database administrator and system
                    administrator access is restricted through role-
 13-04   11/14/12   based segregation of duties and managed                 3/8/13         3/1/14
                    through an effective audit log review process.
                    Enforce an organization-wide configuration
                    management process, to include policies and
 13-04   11/14/12   procedures for maintaining documentation that           3/8/13        9/30/14
                    supports testing and approvals of software
                    changes.
                    Create a more comprehensive improper pay-
                    ment detection checklist for reviewing 7(a) guar-
 13-07   11/15/12   anty purchases to address the many require-             3/12/13       4/30/14
                    ments that reviewers must be familiar with
                    when conducting improper payment reviews.



                                                   52
                                                                          Date of
Report      Date                                                                      Final Action
                                  Recommendation                        Management
Number     Issued                                                                     Target Date
                                                                         Decision
                    Seek recovery of $1,016,116, less subsequent
                    liquidation recoveries from American Busi-
                                                                                     Target date not
 13-07   11/15/12   ness Lending, Inc. for loan number                   Overdue
                                                                                      established.
                    3646765010 to Gregory L. Ratcliff (Pioneer
                    Discount Furniture, Inc.).
                    Seek recovery of $714,444, less subsequent
                    liquidation recoveries from Community South                      Target date not
 13-07   11/15/12                                                        Overdue
                    Bank for loan number 3076325004 to Water-                         established.
                    Well Investments (Splash and Dash).
                    Recover $12,073 from iTechnologies for pay-
 13-08   12/3/12                                                          2/5/13         9/30/13
                    ments the contractor received in duplicate.
                    Initiate debarment proceedings for TLE and
                    its officials to prohibit future contracting with
 13-08   12/3/12                                                          1/18/13        4/1/13
                    any agency of the Executive Branch of the
                    United States government.
                    Conduct an internal control review of SBA’s
                    acquisition function in compliance with OMB
                                                                                     Target date not
 13-08   12/3/12    Circular A-123 and OMB Memorandum, Con-              Overdue
                                                                                      established.
                    ducting Acquisition Assessments under OMB
                    Circular A-123.
                    Adopt a new IIP under LMAS to facilitate the
 13-11   3/12/13    transfer of data and move its new COBOL               9/12/13        4/11/14
                    code to a full production environment
                    Ensure that the Root Cause Analysis IIP be
                    revised so that it conforms to the scope origi-
                    nally approved by the BTIC. The Root Cause
                    Analysis should identify the most critical
 13-11   3/12/13    business needs of the SBA, analyze remaining          6/28/13        4/15/14
                    issues when each LMAS-IIP is completed, and
                    develop plans to prioritize additional projects
                    to address SBA’s most important business
                    needs.
                    Implement an Independent Verification and
                    Validation program for the LMAS-IIP that
 13-11   3/12/13                                                          9/12/13       9/20/15
                    tests and validates that each IIP meets its
                    program and functional requirements.
                    For purchase order SBAHQ-11-M-0018, review
                    all invoices and make a determination of
                                                                                     Target date not
 13-12   3/26/13    whether all the work that was billed to the          Overdue
                                                                                      established.
                    SBA was actually performed. If not, the CO
                    should take appropriate action.




                                                53
                                                                          Date of
Report      Date                                                                      Final Action
                                   Recommendation                       Management
Number     Issued                                                                     Target Date
                                                                         Decision
                     Seek recovery of $1,425,247 from Compass
13-16R   6/14/13     Bank on the guaranty paid by SBA for the loan        3/28/14        3/31/15
                     to Christopher W. Risenhoover.
                     Seek recovery of $669,963 from The Washing-
                     ton Trust Company on the guaranty paid by
13-16R   6/14/13                                                          3/28/14        3/31/15
                     the SBA for the loan to Bernie’s Fuel Oil Com-
                     pany
                     Seek recovery of $967,869 from High Trust
13-16R   6/14/13     Bank on the guaranty paid by SBA for the loan        3/28/14        3/31/15
                     to Metalflex Manufacturing
                     Seek recovery of $555,368 from Monadnock
13-16R   6/14/13     Community Bank on the guaranty paid by SBA           3/28/14        3/25/15
                     for the loan to PCL Group, LLC.
                     Seek recovery of $310,637 from Plaza Bank on
13-16R   6/14/13     the guaranty paid by SBA for the loan to Tiger       3/28/14        3/31/15
                     Manufacturing.
                     Seek recovery of $680,900 from American
                     Bank of Commerce on the guaranty paid by
13-16R   6/14/13                                                          3/28/14        3/31/15
                     SBA for the loan to RedCastle Manufacturing
                     LLC.
                     Implement a portfolio risk-management pro-
 13-17   7/2/2013    gram that analyzes risk across portfolio seg-        9/30/13        8/1/14
                     ments.
                     We recommend the Office of Strategic Alli-
                     ances establish controls, such as a reporting
                     system, to ensure that all activities are timely
 13-21   9/26/2013   and properly closed out, and that all required       1/23/14        12/1/14
                     documents and reports, as specified in SOP 90
                     75 3, are obtained.
                     We recommend the Associate Administrator,
                     under the provisions of FMFIA, perform peri-
                     odic quality service reviews to include cospon-                 Target date not
 13-21   9/26/2013                                                       Overdue
                     sorship files and funds disposition, verifying                   established.
                     any expenses paid out of cosponsored income
                     are appropriate.
                     We recommend that the Director, Office of
                     Financial Program Operations, mandate that
                     the NDLRC comply with the DCIA and, devel-
                     op, and implement management controls and
 13-18   9/27/2013   processes related to debts, to ensure                3/31/14        3/24/15
                     a. That all eligible charged off loans now des-
                     ignated with loan status comment code “66”
                     are transferred to Treasury for cross servicing
                     promptly.


                                                 54
                                                                          Date of
Report      Date                                                                     Final Action
                                  Recommendation                        Management
Number     Issued                                                                    Target Date
                                                                         Decision
                     We recommend that the Director, Office of
                     Financial Program Operations, mandate that
                     the NDLRC comply with the DCIA and, devel-
                     op, and implement management controls and
                     processes related to debts, to ensure
 13-18   9/27/2013                                                        3/30/14      3/24/15
                     a. That the NDLRC does not designate loans
                     charged off in the future to block their trans-
                     fer to Treasury for cross servicing because the
                     loans have un-liquidated real estate collateral.
                     We recommend that the Director, Office of
                     Financial Program Operations, mandate that
                     the NDLRC comply with the DCIA by devel-
                     oping and implementing management con-
                     trols and processes related to debts, to ensure
 13-18   9/27/2013                                                        3/30/14      3/24/15
                     a. The Transfer of all legally enforceable
                     debts already charged off, to Treasury for
                     cross servicing. (Note: $6.36 m via cross ser-
                     vicing plus $5.98 m via offset.)
                     We recommend that the Director, Office of
                     Financial Program Operations, mandate that
                     the NDLRC comply with the DCIA by devel-
                     oping and implementing management con-
                     trols and processes related to debts, to ensure

 13-18   9/27/2013   b. That all debtors associated with charged          3/31/14      3/27/15
                     off legally enforceable debts, required to be
                     transferred to Treasury for cross servicing and
                     offset, are successfully transferred. (Over the
                     next two years: $2.54 m from transferring non
                     -66 coded loans to cross servicing plus $2.39
                     m from transferring debts to offset.)




                                                55
Appendix VIII: Significant Recommendations
October 1, 2013-March 31, 2014

Report                                   Date
                    Title                                         Recommendation
Number                                  Issued


                                                    Include all improper payment errors reportable
         The SBA’s FY 2012 Reported
                                                    under Office of Management and Budget
         Improper Payment Rate for
                                                    (OMB) guidance in the improper payment rate
 14-02   Disbursements and Con-        10/24/2013
                                                    calculation for FY 2013 or obtain OMB approval
         tracting was Inaccurate and
                                                    before excluding errors such as those identified
         Incomplete
                                                    in Appendix IV to this report.
         The SBA’s FY 2012 Reported
                                                    Conduct a review of all invoices pertaining to
         Improper Payment Rate for
                                                    contract number SBAHQ-11-F-0027 (sample
 14-02   Disbursements and Con-        10/24/2013
                                                    item 39) and recover all unauthorized overage
         tracting was Inaccurate and
                                                    charges and insurance fees from the vendor.
         Incomplete
                                                    Determine whether the charges for the CPICA
         The SBA’s FY 2012 Reported                 CPIC Analyst labor category pertaining to con-
         Improper Payment Rate for                  tract number SBAHQ-10-D-0010 were proper
 14-02   Disbursements and Con-        10/24/2013   and within the scope of the contract. If not, take
         tracting was Inaccurate and                appropriate action(s), including pursuing reim-
         Incomplete                                 bursement from the vendor, to protect the in-
                                                    terest of the government.
         Opportunities Exist to Fur-                Review the HUBZone certification process and
         ther Improve Quality and                   identify a means to meet the deadlines estab-
 14-03                                 11/19/2013
         Timeliness of HUBZone Cer-                 lished by regulation, through an improved busi-
         tifications                                ness process.
         Opportunities Exist to Fur-
                                                    Review the certification of the three firms iden-
         ther Improve Quality and
 14-03                                 11/19/2013   tified by the OIG in this report for possible de-
         Timeliness of HUBZone Cer-
                                                    certification.
         tifications
                                                    Update HUBZone guidance based on the cur-
                                                    rent certification process, which includes the
                                                    full supporting documentation review. Consid-
         Opportunities Exist to Fur-
                                                    er incorporating into the guidance a search of
         ther Improve Quality and
 14-03                                 11/19/2013   FPDS-NG database to ensure the firm is not
         Timeliness of HUBZone Cer-
                                                    receiving contracts with HUBZone status during
         tifications
                                                    the HUBZone application review and a method
                                                    to maintain a complete history of the firm's
                                                    status in the DSBS.
                                                    KPMG recommends that the Chief Information
                                                    Officer coordinates with SBA program offices to
         Audit of SBA’s FY 2013 Fi-                 address the existing configuration management
 14-04   nancial Statements dated      12/16/2013   vulnerabilities noted during our assessment to
         11/16/13                                   be in compliance with SBA policy and SBA Vul-
                                                    nerability Assessment Team (VAT) Internal
                                                    Operating Procedures, Version 1.4.


                                               56
Report                                      Date
                     Title                                           Recommendation
Number                                     Issued
                                                       In addition, implement procedures to ensure the
                                                       consistent implementation and monitoring of
                                                       SBA approved security configuration baselines
                                                       across SBA’s workstations, servers, databases,
                                                       network devices, and other security relevant ap-
                                                       pliances.
                                                       KPMG recommends that the Chief Financial
                                                       Officer and the Associate Administrator, Office
         Audit of SBA’s FY 2013 Finan-
 14-04                                    12/16/2013   of Disaster Assistance, implement scans of finan-
         cial Statements dated 11/16/13
                                                       cial systems in its production environment using
                                                       privileged access authorization.
                                                       KPMG recommends that the Chief Information
                                                       Officer coordinates with SBA program offices to
                                                       enforce a network access security baseline(s)
         Audit of SBA’s FY 2013 Finan-
 14-04                                    12/16/2013   across the network, consistent with SBA security
         cial Statements dated 11/16/13
                                                       policy, Office of Management and Budget direc-
                                                       tives, and United States Government Configura-
                                                       tion Baseline requirements.
                                                       KPMG recommends that the Chief Information
                                                       Officer coordinates with the SBA program offices
         Audit of SBA’s FY 2013 Finan-                 to review the list of individuals with HQ data
 14-04                                    12/16/2013
         cial Statements dated 11/16/13                center access permissions periodically, to ensure
                                                       that only authorized personnel retain access to
                                                       the HQ data center.
                                                       KPMG recommends that the Chief Information
                                                       Officer coordinates with SBA program offices to
                                                       improve SBA’s administration of logical system
                                                       access by taking the following actions:

                                                       1) Implement an effective off-boarding process
                                                       and verify periodically that controls to remove
                                                       logical access for separated employees from SBA
                                                       systems are implemented and operating as de-
         Audit of SBA’s FY 2013 Finan-                 signed;
 14-04                                    12/16/2013
         cial Statements dated 11/16/13
                                                       2) Establish a process for the identification and
                                                       removal of separated contractors in order to help
                                                       ensure that access is timely removed upon con-
                                                       tractor separation; and

                                                       3) Remove access to the general support systems
                                                       and major applications (including development
                                                       and test environments) timely when terminated
                                                       employees and contractors are identified.




                                                57
Report                                      Date
                     Title                                            Recommendation
Number                                     Issued

                                                       KPMG recommends that the Chief Information
                                                       Officer coordinates with the SBA program offices
                                                       to address the vulnerabilities noted during the
                                                       FY 2013 audit, to be in compliance with SBA poli-
                                                       cy and SBA Vulnerability Assessment Team
         Audit of SBA’s FY 2013 Finan-
 14-04                                    12/16/2013   (VAT) Internal Operating Procedures, Version
         cial Statements dated 11/16/13
                                                       1.4. In addition, implement procedures to ensure
                                                       the consistent identification, tracking, and reso-
                                                       lution of security vulnerabilities across SBA’s
                                                       workstations, servers, databases, network devic-
                                                       es, and other security relevant appliances.
                                                       KPMG recommends that the Chief Information
                                                       Officer coordinates with SBA program offices to
                                                       grant elevated network privileges per business
         Audit of SBA’s FY 2013 Finan-                 needs only and enforce the concept of least privi-
 14-04                                    12/16/2013
         cial Statements dated 11/16/13                lege or implement mitigating controls to ensure
                                                       that activities performed using privileged net-
                                                       work accounts (including service accounts) are
                                                       properly monitored.
                                                       KPMG recommends that the Associate Adminis-
                                                       trator, Office of Capital Access, in coordination
                                                       with the Chief Information Officer, designs and
                                                       implements a combination of preventative and
         Audit of SBA’s FY 2013 Finan-
 14-04                                    12/16/2013   detective controls to address the issues and relat-
         cial Statements dated 11/16/13
                                                       ed risks in the condition above, and ensure an
                                                       auditable trail of software changes is maintained
                                                       to prevent and detect unauthorized changes to
                                                       production programs.
         Quality Control Program at                    Ensure the proper allocation of resources and
         the National Guaranty Pur-                    scoping of the quality control program to com-
 14-08                                    1/17/2014
         chase Center and Loan Ser-                    plete required quality control activities at the
         vicing Centers for 7(a)                       loan operation centers.
         Purchase Reviews Allowed                      #1 - Seek recovery of $1,473,770 (less any amounts
         $3.1 Million in Improper Pay-                 received from liquidation) from TD Bank on the
 14-09                                    1/29/2014
         ments on 7(a) Recovery Act                    guaranty paid by the SBA for the loan to Emer-
         Loans                                         son Holdings, Corp.

         Purchase Reviews Allowed                      #3 - Seek recovery of $897,091 (less any amounts
         $3.1 Million in Improper Pay-                 received from liquidation) from Liberty Bank on
 14-09                                    1/29/2014
         ments on 7(a) Recovery Act                    the guaranty paid by the SBA for the loan to
         Loans                                         Dinh V. Luong d/b/a Old Matt's Guesthouse.




                                                58
Report                                     Date
                     Title                                         Recommendation
Number                                    Issued

                                                     #2 - Seek recovery of $685,691 (less any amounts
         Purchase Reviews Allowed
                                                     received from liquidation) from Florida Com-
         $3.1 Million in Improper Pay-
 14-09                                   1/29/2014   munity Bank (formerly First Peoples Bank) on
         ments on 7(a) Recovery Act
                                                     the guaranty paid by the SBA for the loan to TJ
         Loans
                                                     Truss Corp.
         The SBA Did Not Follow Reg-                 Conduct a requirements analysis in addition to
         ulations and Guidance in the                a cost assessment of the system to determine
 14-10                                   2/12/2014
         Acquisition of the OneTrack                 what still needs to be developed to achieve the
         System                                      objectives of the final system.
         The SBA Did Not Follow Reg-                 Ensure all appropriate provisions (e.g. testing,
         ulations and Guidance in the                conversion, and installation procedures) of the
 14-10                                   2/12/2014
         Acquisition of the OneTrack                 SDM guidance are met prior to placing
         System                                      OneTrack into production.
         The SBA Did Not Follow Reg-                 Ensure that only Government employees - not
         ulations and Guidance in the                Government contractors - provide oversight of
 14-10                                   2/12/2014
         Acquisition of the OneTrack                 any additional contracts used to develop and
         System                                      implement the OneTrack system.




                                               59
Appendix IX: Cosponsored & Other Activities

     Name/Subject                           Name of                        Event          Date
       of Event                           Cosponsor(s)                    Location        Fully
                                                                                        Executed
Government Contracting      Vermont DO - Vermont Small Business
                                                                          Vermont
Workshop Series             Development Center, Vermont Procure-                        10/30/2013
                                                                          Statewide
                            ment Technical Assistance Center
SBA Annual Meeting          Vermont DO - Vermont Small Business
                                                                         Montpelier,
                            Development Center                                          11/6/2013
                                                                            VT
New Hampshire DO Lend-      New Hampshire DO - New Hampshire
                                                                        Concord, NH     11/6/2013
ers Awards Ceremony         Bankers Association
Capital Access              Portland DO - Oregon Banker's Association
                                                                        Portland, OR    11/7/2013

Business Roundtables        Wyoming DO - Atlantic City Federal Credit
                                                                            Fort
                            Union, Wind River Development Fund                          11/15/2013
                                                                        Washakie, WY
2013 Lender Awards Event    New Jersey DO - Trenton Business Assis-
                            tance Corporation                           East Windsor,
                                                                                        11/27/2013
                                                                             NJ

Finding New International   West Virginia DO - U.S. Commercial
Customers Workshop          Service-U.S. Export Assistance Center of
                                                                         Elkins, WV     11/27/2013
                            West Virginia, West Virginia Development
                            Office- International Division
Affordable Care Act Week-   HQ/OCPL-Small Business Majority             World Wide
                                                                                        12/1/2013
ly Webinar Series                                                         Web
Business Development        Columbus DO - Ohio University Procure-
                                                                         Columbus,
Workshops                   ment Technical Assistance Center, Law-
                                                                         Cincinnati,
                            rence Economic Development Corporation                      12/11/2013
                                                                        Athens, South
                            Procurement Outreach Center aka South-
                                                                         Point, OH
                            ern Ohio Procurement Outreach Center
 Small Business Boot Camp   New York DO - Brooklyn Public Library
                                                                        Brooklyn, NY    12/11/2013
Seminar Series
Entrepreneur Assistance     New York DO - Carroll Gardens
Workshop Series 2014        Association, Inc.                           Brooklyn, NY    12/11/2013

SBA & Zhejiang Chamber      New York DO - Zhejiang Chamber of
of Commerce of America      Commerce of America
                                                                        Flushing, NY    12/16/2013
Business Success Series
2014
SBA & Monroe College        New York DO - Monroe College King
King Graduate School        Graduate School Queens Extension Site       Flushing, NY    12/16/2013
Business Seminars 2014
Accounting and Bookkeep-    North Dakota DO - DFC Consultants, Ltd.     World Wide
ing Webinar Series                                                                      12/16/2013
                                                                          Web



                                                   60
     Name/Subject                        Name of                           Event             Date
       of Event                        Cosponsor(s)                       Location           Fully
                                                                                           Executed
Changes in Federal and   San Diego DO -
State Employment Laws,   California Employers Association
                                                                       San Diego, CA       12/17/2013
Rules and Regulations
Workshops
SBA Day in Alpine        San Diego DO -
                         Alpine Chamber of Commerce                      Alpine, CA        12/17/2013

2014 Ohio Business       Columbus DO - SBDC, Inc. Springfield and
Matchmaker               Clark County, Ohio Development Services
                         Agency - Office of Business Assistance -
                         Small Business Development Center, Office
                                                                        Dayton, OH         12/19/2013
                         of Business Assistance - Procurement Tech-
                         nical Assistance Center, Minority Business
                         Enterprise Division - Minority Contractor
                         Business Assistance Program
Vermont Entrepreneur-    Vermont DO - Johnson State College -
ship Week 2014           Department of Business and Economics,
                         Vermont Agency of Commerce and
                         Community Development, Vermont Career         Montpelier, VT      12/19/2013
                         and Technical Student Organizations,
                         Vermont Small Business Development
                         Center
How to Manage Your       HQ/OCPL – Yelp
                                                                       New York, NY,
Small Business Online                                                                      12/24/2013
                                                                      World Wide Web
Reputation
New Mexico SBA and       New Mexico DO - New Mexico Small
New Mexico SBDC PTAP     Business Development Center Procurement
Workshops                Technical Assistance Program, New Mexico       New Mexico          1/8/2014
                         Small Business Development
                         Center Network
Affordable Care Act      Portland DO - Small Business Majority -
                                                                      World Wide Web        1/8/2014
Webinar Series           Oregon
Los Angeles District     Los Angeles DO - Business Resource
Office Lender Training   Group, Inc.                                  Los Angeles, CA       1/8/2014
and Awards
Encore Entrepreneur      West Virginia DO - Charleston West
                         Virginia SCORE Chapter 256, West Virginia
                                                                       Charleston, WV      1/10/2014
                         State University Community & Economic
                         Development Center, AARP West Virginia
Lender Recognition       Utah DO - Mountain West Small Business
Award Breakfast and      Finance, Utah Certified Development          Salt Lake City, UT   1/17/2014
Training                 Company




                                                 61
    Name/Subject                             Name of                          Event          Date
      of Event                             Cosponsor(s)                      Location        Fully
                                                                                           Executed
Series of Government      Rhode Island DO - Rhode Island Commerce Cor-
Contracting & Business    poration-Rhode Island Procurement Technical
                                                                            Providence,
Development Work-         Assistance Center                                                1/17/2014
                                                                                RI
shops and Matchmaker
Events
Small Business            Washington DC DO - Washington, DC Economic        Washington,
Educational Series        Partnership, Venable, LLP                                        1/23/2014
                                                                               DC
Small Business            Washington DC DO - DC Department of Small         Washington
                                                                                           1/23/2014
Educational Series        and Local Business Development                       DC
Small Business Award      Utah DO - Mountain West Small Business Fi-
                                                                             Salt Lake
Luncheon and Training     nance, Utah Certified Development Company                        1/23/2014
                                                                             City, UT

2014 Vermont              Vermont DO - Office of U.S. Senator Patrick
Matchmaker                Leahy, Vermont Chamber of Commerce,
                          Vermont Agency of Transportation, Vermont
                          Department of Building and General Services,      Burlington,
                                                                                           1/23/2014
                          Vermont Department of Economic Development,           VT
                          Vermont Small Business Development Center,
                          Vermont Manufacturing
                          Extension Center
Small Business Work-      Rhode Island DO - City of Providence Depart-
shop Series               ment of Planning and Development, SCORE Jo-       Providence,
                                                                                           1/27/2014
                          seph G.E. Knight Chapter 13, Center for Women &       RI
                          Enterprise
Doing Business with the   Hawaii DO - State of Hawaii Department of
                                                                             Honolulu,
Government Workshops      Transportation, Honolulu Minority Business                       1/27/2014
                                                                              Hilo, HI
                          Center
SBA/SBS Entrepreneurial   New York DO - NYC Business Solutions, Upper        New York,
Workshops                 Manhattan Center                                                 1/27/2014
                                                                               NY
Access To Capital for     New York DO - Harlem Community Develop-            New York,
                                                                                           1/27/2014
Small Business            ment Corporation                                     NY
Small Business Work-      Rhode Island DO-Office of Mayor Donald R.
shop Series               Grebien, City of Pawtucket, Pawtucket
                                                                             Pawtucket,
                          Foundation, Joseph G.E. Knight SCORE Chapter                     1/28/2014
                                                                                RI
                          13, Center for Women & Enterprise, TD Bank,
                          Northern Rhode Island Chamber of Commerce
SBA/NACC Youth Small      New York DO - New American Chamber of
Business Boot Camp        Commerce                                          Brooklyn, NY   1/30/2014
Series




                                                   62
     Name/Subject                                 Name of                             Event          Date
       of Event                                 Cosponsor(s)                         Location        Fully
                                                                                                   Executed
SBA/NACC Adult Small        New York DO - New American Chamber of
                                                                                     Brooklyn,
Business Boot Camp          Commerce                                                               1/30/2014
                                                                                        NY
Series
Start Small Think Big       New York DO - Start Small Think Big
                                                                                     Bronx, NY     1/30/2014
Business Seminars
Starting Your Business      Massachusetts DO - Operation A.B.L.E. of Greater
                                                                                    Boston, MA     1/31/2014
Program                     Boston, Inc., AARP
Small Business Excellence   Syracuse DO - New York Business Development              Syracuse,
                                                                                                   1/31/2014
Award Recognition           Corporation                                             Albany, NY
OPERATION: Start Up         Syracuse DO - New York Business Development
and Grow                    Corporation, M&T Bank, Onondaga Community
                            College, Onondaga Small Business Development
                            Center, Institute for Veterans and Military Families,
                            WISE Women’s Business Center, The Tech Garden,          Syracuse, NY   2/4/2014
                            Syracuse SCORE Chapter 98, Martin J. Whitman
                            School of Management-Department of
                            Entrepreneurship & Emerging Enterprises-Falcone
                            Center for Entrepreneurship at Syracuse University
Emerging Leaders            Syracuse DO-CenterState Corporation for Economic
Initiative                  Opportunity, Central New York Technology
                            Development Organization, Inc., City of Syracuse
                            Office of Neighborhood and Business Development,
                            Manufacturers Association of Central New York,
                            Onondaga Small Business Development Center,             Syracuse, NY   2/4/2014
                            SCORE Syracuse, State University of New York
                            College of Environmental Science and Forestry,
                            Syracuse University, The Downtown Committee of
                            Syracuse, Inc., The Falcone Center for Entrepreneur-
                            ship, The Tech Garden, The WISE Center
2014 International          New York DO - Zhejiang Chamber of Commerce of
Business Expo               America                                                 Flushing, NY   2/11/2014

Small Business Workshop     Rhode Island DO - Center for Women & Enterprise,        Providence,
Series                      SCORE Joseph G.E. Knight Chapter 13                                    2/11/2014
                                                                                        RI
Opening Doors to Gov-       Syracuse DO-Mohawk Valley Small Business
ernment Contracting for     Development Center, Women’s Business Center of           New York,
                                                                                                   2/11/2014
Women & Minorities          NYS, Utica SCORE, North Country Procurement                NY
                            Technical Assistance Center




                                                      63
   Name/Subject                               Name of                             Event          Date
     of Event                               Cosponsor(s)                         Location        Fully
                                                                                               Executed
2014 SBA Great Lakes    Michigan DO - SCORE Detroit
                                                                                Detroit, MI    2/11/2014
Lenders’ Conference     Chapter 18
Emerging Leaders        St. Louis DO - Commerce Bank, Grace Hill Women’s
Initiative              Business Center, Midwest Regional Bank, Procurement
                        Technical Assistance Center, SCORE St. Louis Chapter
                                                                                 St. Louis,
                        21, Small Business & Technology Development Center,                    2/20/2014
                                                                                    MO
                        St. Louis Economic Development Partnership, Veter-
                        an’s Business Resource
                        Center
Emerging Leaders        Tennessee DO - Economic Development Growth
Initiative              Engine Industrial Development Board of the City of
                        Memphis and County of Shelby Tennessee, Office of        Memphis,
                                                                                               2/20/2014
                        the Mayor of the City of Memphis, Office of the Mayor      TN
                        of Shelby County, Southwest Tennessee Community
                        College
Small Business Devel-   Santa Ana DO- Orange County Small Business              Mission Vie-
                                                                                               2/20/2014
opment Seminar Series   Development Center, City of Mission Viejo                  jo, CA
Small Business Semi-    Santa Ana DO-Orange County Small Business
nar Series              Development Center, City of Cypress Redevelopment       Cypress, CA    2/20/2014
                        Projects Office
Women in Business       West Virginia DO-                                        Fairmont,
                                                                                               2/20/2014
Round Table             Marion County Chamber of Commerce                           WV
Emerging Leaders        Dallas/Ft. Worth DO-City of Dallas Office of Economic
Initiative              Development, Dallas Black Chamber of Commerce,
                        DFW Minority Supplier Development Council, Greater
                        Dallas Asian American Chamber of Commerce, North
                        Texas Association of Government Guaranteed Lenders,
                                                                                 Dallas, TX    2/20/2014
                        North Texas Small Business Development Center
                        Network, Regional Hispanic Contractors Association,
                        SCORE Dallas Chapter 22, SCORE Fort Worth Chapter
                        120, Tri-County Regional Hispanic Chamber, US Pan
                        Asian American Chamber of Commerce SW




                                                   64
     Name/Subject                               Name of                            Event         Date
       of Event                               Cosponsor(s)                        Location       Fully
                                                                                               Executed
The Value of the Public    HQ/Office Veterans Business Development- Syra-
                                                                                 Washington,
Private Partnership:       cuse University Institute for Veterans and Military                 2/20/2014
                                                                                    DC
VWISE a case study         Families
Series of Three Demo Day   HQ/Office of Investment and Innovation - Global
Events for High Growth     Accelerator Network                                   Austin, TX    2/21/2014
Accelerators
Export Trade Assistance    Santa Ana DO-City Riverside, Riverside County
                                                                                  Riverside,
Partnership Program        Economic Development Agency Office of Foreign                       2/28/2014
                                                                                     CA
                           Trade
Export Training Workshop   Hawaii DO - State of Hawaii Department of               Hawaii
                                                                                               2/28/2014
Events                     Agriculture                                            Statewide
Emerging Leaders           Wichita DO-Beechcraft Corporation, Cargill Meat
Initiative                 Solutions, City of Wichita Purchasing Office,
                           Intrust Bank, Kansas Leadership Center, Kansas
                           Procurement Technical Assistance Center, Kansas
                           Small Business Development Center, Mid America
                           Minority Supplier Development Council, Rose Hill      Wichita, KS   2/28/2014
                           Bank, SCORE Wichita Chapter 0143, USD 259
                           Wichita Public Schools, Westar Energy, Wichita
                           State University, Center for Entrepreneurship,
                           Wichita State University, Center for Innovation,
                           Wichita Metro Chamber of Commerce
Emerging Leaders           Wisconsin DO-BizStarts, City of Milwaukee,
Initiative                 Greater Milwaukee Committee, Manpower, Inc.,
                           Metropolitan Milwaukee Sewerage District,
                           Milwaukee County, Community B+C63siness
                                                                                 Milwaukee,
                           Development Partners, Small Business                                2/28/2014
                                                                                    WI
                           Development Center, UW-Milwaukee, WI Business
                           Development Finance Corporation, WI Economic
                           Development Corporation, WI Women’s Business
                           Initiative Corporation
Emerging Leaders           Illinois DO-Wintrust Financial Corporation,
                                                                                 Chicago, IL   2/28/2014
Initiative                 SCORE Chicago
Emerging Leaders           Oklahoma DO-Oklahoma Small Business
Initiative                 Development Centers, Rose State College, Rural         Midwest
                                                                                               2/28/2014
                           Enterprises of Oklahoma, Inc., SCORE Oklahoma          City, OK
                           City Chapter 212




                                                    65
      Name/Subject                                Name of                          Event           Date
        of Event                                Cosponsor(s)                      Location         Fully
                                                                                                 Executed
5 Steps to Building Business   HQ/OCPL-Dun & Bradstreet Credibility
Credit and Access to Capi-     Corporation                                       World Wide
                                                                                                 2/28/2014
tal: Preparing to Meet Your                                                        Web
Lender
Emerging Leaders Initiative    South Florida DO-ICABA Media Holdings, LLC,
                               Minority Business Development Agency Business
                               Center-Miami, SCORE Miami, Small Business
                               Development Center at Florida International        Miami, FL      3/7/2014
                               University, South Florida Minority Supplier
                               Development Council, City of Miami, Women’s
                               Business Development Council of Florida
Emerging Leaders Initiative    Arizona DO-American Indian Chamber Education
                               Fund Procurement Technical, Assistance Center,
                                                                                 Phoenix, AZ     3/7/2014
                               American Indian Chamber of Commerce of
                               Arizona
Emerging Leaders Initiative    Georgia DO-Minority Business Development
                               Agency Business Center - Atlanta, Georgia
                               Institute of Technology, SCORE Atlanta Chapter,   Atlanta, GA     3/7/2014
                               Atlanta Development Authority dba Invest
                               Atlanta
Emerging Leaders Initiative    Fresno DO-Central California Hispanic Chamber
                               of Commerce, Fresno Area Hispanic Chamber of
                               Commerce, Fresno Metro Black Chamber of
                                                                                 Fresno, CA      3/7/2014
                               Commerce, Minority Business Development
                               Agency Business Center- Fresno, SCORE Fresno
                               Chapter 380
The Importance of Getting      HQ/Office of Women's Business
More Women to Start Busi-      Ownership- 1776                                   Washington,
                                                                                                 3/10/2014
nesses in STEM Fields                                                               DC

U.S. Small Business Admin-     Wisconsin DO-SCORE Southeast Wisconsin
istration 2014 Awards          Chapter 28, Reinhart Boerner Van Deuren s.c.,     Milwaukee,
                                                                                                 3/11/2014
Breakfast                      Milwaukee Business Journal                           WI

Small Business Workshops       Baltimore DO - Business and Professional Woman    Cockeysville,
                                                                                                 3/11/2014
                                                                                     MD
Affordable Healthcare Act:     Hawaii DO-Kaiser Permanente, Hawaii Region          Hawaii        3/11/2014




                                                     66
      Name/Subject                               Name of                         Event           Date
        of Event                               Cosponsor(s)                     Location         Fully
                                                                                               Executed
Small Business Management      North Dakota DO - Sitting Bull College
                                                                                Yates, ND      3/11/2014
Workshop
2014 Albany Matchmaker         Syracuse DO - New York Business Develop-
                               ment Corporation, University at Albany Small
                                                                                Albany, NY     3/11/2014
                               Business Development Center, New York
                               State Contract Reporter
SBA Day at the Ballpark 2014   Philadelphia DO - Constant Contact              Philadelphia,
                                                                                               3/14/2014
                                                                                    PA
Meet Your Northern Maine       Maine DO-Northern Maine Development
                                                                              Kent, Caribou,
Lenders and Resource Part-     Commission, Maine Centers for Women,                            3/14/2014
                                                                              Houlton, ME
ners                           Work and Community
Small Business Week Break-     Puerto Rico DO-Puerto Rico Bankers
                                                                               San Juan, PR    3/14/2014
fast and Awards Ceremony       Association
Small Business Workshop        Rhode Island DO - Office of the Mayor Lisa
Series                         Baldelli-Hunt City of Woonsocket, Center for
                               Women & Enterprise, SCORE Joseph G.E.          Woonsocket, RI   3/14/2014
                               Knight Chapter 13, Northern Rhode Island
                               Chamber of Commerce
For Her Entrepreneurship-      HQ/Office Veterans Business Development -
Resources, Opportunities,      The American Legion, Syracuse University        Washington,
                                                                                               3/14/2014
Experience & Support (For      Institute for Veterans and Military Families       DC
HEROES)
SBA Weekly News Segment        Los Angeles DO - Noticias MundoFox              Los Angeles,
                                                                                               3/20/2014
with Noticias MundoFox                                                             CA
Small Business Week 2014       St. Louis DO-Small Business Week of Eastern
                                                                               St. Louis, MO   3/20/2014
                               Missouri, Inc.
Salute to Small Business       South Carolina DO-South Carolina Chamber
                               of Commerce, University of South Carolina -
                               Small Business Development Center of South
                               Carolina, South Carolina Department of
                                                                               Columbia, SC    3/20/2014
                               Commerce, ECI/Find New Markets, U.S.
                               Department of Agriculture - Rural Develop-
                               ment Administration, SCORE Midlands
                               Chapter 230




                                                     67
     Name/Subject                                Name of                             Event          Date
       of Event                                Cosponsor(s)                         Location        Fully
                                                                                                  Executed
Oregon Small Business        Portland DO -Albina Community Bank, Columbia
Week Award Event 2014        State Bank, Evergreen Business Capital, Howard S.
                             Wright, KBNP Radio 1410, KeyBank, NW Business
                             Development Association, Oregon Bankers Associa-      Portland, OR   3/20/2014
                             tion , Port of Portland, SCORE Portland Chapter 11,
                             Oregon Small Business Development Center
                             Network, Umpqua Bank, U.S. Bank, Wells Fargo
National Encore Entre-       HQ/Office of Entrepreneurial Development- AARP
preneur Month, Tele-                                                                 Multiple
                                                                                                  3/21/2014
Townhalls & Webinar                                                                   Cities
Series
Monthly Small Business       Washington DC DO-Sage Solutions GTM, LLC
                                                                                   Washington,
University Educational                                                                            3/25/2014
                                                                                      DC
Series
Monthly Business Forum       New York DO-White Plains Public Library,                 White
                             Women’s Enterprise Development Center, Inc.                          3/28/2014
                                                                                    Plains, NY
Monthly Small Business       Washington DC DO-Greater McLean Chamber of
                                                                                   McLean, VA     3/28/2014
Educational Series           Commerce
Monthly Small Business       Washington DC DO-Montgomery Community
                                                                                    Rockville,
University Educational       Television, Mid-Atlantic Federal Credit Union                        3/28/2014
                                                                                      MD
Series
Emerging Leaders             New Jersey DO-African American Chamber of
Initiative                   Commerce of New Jersey, Brick City Development
                             Corporation of Newark, Greater Newark Enterprises
                             Corporation, Morris County Hispanic-American
                                                                                   Newark, NJ     3/28/2014
                             Chamber of Commerce, New Jersey Business and
                             Industry Association, New Jersey Chamber of
                             Commerce, New Jersey Small Business Develop-
                             ment Center
Emerging Leaders             Colorado DO-City of Aurora, Aurora Small Business
Initiative                   Development Center, Denver Hispanic Chamber of
                             Commerce, Colorado Small Business Development         Aurora, CO     3/31/2014
                             Center, Colorado Black Chamber of Commerce,
                             Colorado National Bank
Advancing Women in           Richmond DO-City of Chesapeake Department of
Business Series: Taking it   Economic Development                                  Chesapeake,
                                                                                                  3/31/2014
to the Next Level                                                                      VA
Conference




                                                     68
Appendix X: Legal Actions Summary
October 1, 2013-March 31, 2014
                  Jointly
State   Program                        Alleged Violation(s) Prosecuted                     Legal Action
                   with
                              A borrower of a $1,760,000 loan provided false re-        Individual indicted
 AL       BL        FBI
                              ceipts related to his equity injection requirement.       and pled guilty.
                    DCIS,     A borrower of a $40,000 loan submitted false income       Individual sen-
                    Army      and employment information. The borrower mis-             tenced to 12 month’s
 AL       BL
                  CID, IRS/   used the loan proceeds to pay off her boyfriend’s         probation.
                     CI       debt.
                              A borrower received a $703,300 disaster loan. He          Individual indicted.
                              made false statements related to his financial condi-
 AR       DL       IRS/CI     tion and the location of integral business equipment
                              at the time of the disaster.
                              A borrower made false statements relating to his fail-    Individual was in-
 CA       BL        FBI       ure to disclose three existing loans already in default   dicted and pled
                              as he received loans totaling $1,839,359.                 guilty.
                              An individual made false statements related to the        Individual was
                              deposit of fraudulent SBA loan proceeds into an un-       charged by infor-
 CA       BL        FBI       authorized business account. It was determined she        mation and pled
                              had stolen approximately $362,875.                        guilty.
                              Two individuals, while under indictment, paid a           Two individuals
                              straw borrower $100,000 to pose as the owner of a         charged under a
                              business and apply for a $4,500,000 loan to purchase      superseding indict-
 CA       BL        FBI       two gas stations. False statements were made relat-       ment.
                              ing to the down payment to purchase the gas stations
                              and the individuals also misused the loan proceeds
                              for personal expenses.
                              Two individuals made false statements related to          Two individuals
                              their previous bankruptcies, pending law suits, and       pled guilty.
 CA       BL        FBI       lack of controlling interest in the business as they
                              applied for a $1,450,000 loan.
                              A borrower made false statements relating to prior        Individual indicted.
                              bankruptcies, criminal history, misuse of a SSN and
                   TIGTA      misuse of an IRS stamp as he applied for loans total-
 CA       BL
                    FBI       ing $400,000. He also used fraudulent means to ob-
                              tain a $150,000 line of credit and a $100,000 term loan
                              from other banks.
                              In a complex public corruption scheme involving           Three individuals
                              multiple defendants, contractors provided kick-backs      pled guilty. One
                              to public officials and other prime contractors in or-    individual and his
                     FBI,     der to receive contracts in the 8(a) program on a Na-     company pled
                    NCIS,     vy base. Instances of corruption include bribe pay-       guilty. One individ-
 CA       GC       IRS/CI,    ments and remodeling of public official’s personal        ual charged by in-
                    DCIS,     residences at no charge.                                  formation. The
                  GSA/OIG                                                               Department of the
                                                                                        Navy also suspend-
                                                                                        ed seven individuals
                                                                                        and six companies.

                                                  69
                   Jointly
State   Program                       Alleged Violation(s) Prosecuted                    Legal Action
                    with
                             An 8(a) firm provided false information on the com-      Company terminat-
                             pany’s application. It also failed to disclose the ex-   ed from the 8(a)
CO       None       GC       tent to which non-8(a) persons or firms participated     program.
                             in its management.
                             Government officials received bribes from partici-       Individual sen-
                             pants in SBA programs (i.e. 8(a), Alaska Native Cor-     tenced to 46
                             poration, Service-Disabled/Veteran- Owned (SDVO),        months in prison
                     FBI     etc.) in return for the award of contracts. The same     and ordered to pay
                   IRS/CI    government officials then certified receipt of goods     $1,888,500 in resti-
DC        GC       Army/     and services and authorized payment of fraudulent        tution/asset forfei-
                    CID      invoices submitted by the contractors. The contrac-      ture.
                    DCIS     tors then provided a portion of the proceeds to the
                             government officials, paid kickbacks to other con-
                             tractors, and retained portions for themselves. The
                             bribe and kickback payments exceed $30 million.
                             SBA’s Microloan program makes larger loans to in-        Individual pled
                             termediary companies who, in turn, provide training      guilty.
                             and make smaller loans (maximum of $50,000) to
                             local small businesses. The director of one of these
                             intermediary companies provided false documenta-
 FL       BL       IRS/CI    tion to the SBA to induce it to make loans of
                             $200,000 and $550,000 to the company. In addition,
                             the director allegedly reported that the company had
                             made 21 local small loans using the SBA loan pro-
                             ceeds, when, in fact, it had only provided a total of
                             $25,000 to two businesses.
                             The owners and officers of two firms colluded to mis-    Two companies and
                             represent the status of one of its firms when bidding    four individuals
 FL       GC      DHS/OIG    on contracts set aside for SDVOSBs. False statements     suspended from
                             were also made to the SBA in response to a protest       federal contracting.
                             determination.
                             The president of a construction company artificially     Individual sen-
                             lowered her personal net worth in order to appear to     tenced to 84
                             be economically disadvantaged. She did this by ac-       months in prison
                             quiring, holding, and transferring assets into the       and three years’
                             names of nominees. This allowed her company to           supervised release.
                             quality for the SBA 8(a) program and the Depart-         She was ordered to
                   IRS/CI    ment of Transportation’s Disadvantaged Business          pay restitution of
 ID       GC      DOT/OIG    Enterprises (DBE) program. Based on the company’s        almost $154,000 and
                     FBI     fraudulent participation in these programs, it re-       forfeit $3,084,038.
                             ceived more than $2.5 million in 8(a) federal govern-    A second individual
                             ment contracts and $15 million in DBE state govern-      was sentenced to
                             ment contracts. In addition, an investor in the com-     three months in
                             pany was charged with obstruction of justice.            prison, two years
                                                                                      supervised release,
                                                                                      and a $5,000 fine.

                                                70
                   Jointly
State   Program                        Alleged Violation(s) Prosecuted                     Legal Action
                    with
                              Loan agents sought out unqualified borrowers to pur-      Four individuals
                              chase gas stations. These individuals provided false      indicted.
                  FBI, IRS/
                              documents to SBA such as false tax returns, and
 IL       BL      CI, FDIC/
                              offered kick-backs to lending officials in order to
                     OIG
                              have the loans approved. The loans involved in this
                              case may exceed $10 million.
                              Loan agent sought out an unqualified borrower in-         Individual indicted.
                              volving a loan for $1,760,000 to purchase a gas station
                              and convenience store. The loan agent, buyer and
 IL       BL       USPSIS
                              seller conspired to create false documents associated
                              with an alleged $200,000 inheritance used for the
                              down payment.
                              The wife of a business owner was used as a nominee        Two individuals
                   FDIC/
                              borrower to obtain a $163,924 loan for the husband’s      indicted.
 KS       BL      OIG, IRS/
                              business. The proceeds of the loan were diverted to
                  CI, USSS
                              pay off other loans and for personal expenses.
                              During an offer in compromise to satisfy a $511,400       Individual pled
                              balance on a loan, the borrower misrepresented the        guilty.
 LA       BL        None      value of the collateral for the loan and sold it to an-
                              other company he owned. He also provided false
                              financial information to the lender and SBA.
                              Working in collusion with a private contractor, a bor-    Individual charged
 LA       DL        None      rower submitted false documents (repair receipts) to      by information.
                              the SBA to receive a $98,700 disaster loan.
                  VA/OIG,     Pursuant to the issuance of a subpoena related to an      Individual sen-
                  GSA/OIG,    SDVOSB investigation, an individual deleted docu-         tenced to 12
MA        GC
                    Army      ments on his computer which were responsive to the        months’ probation
                    CID,      subpoena and relevant to the pending investigation.       and a $5,000 fine.
                              A borrower obtained a series of loans including two       Individual pled
                              SBA loans. He submitted numerous financial state-         guilty.
                              ments and records that did not reflect $2.6 million of
MA        BL       IRS/CI
                              his business funds which were actually used for per-
                              sonal expenses. He also altered his financial books
                              and records to conceal this information.
                              The owners of a loan brokerage company and others         Individual indicted.
                              encouraged prospective borrowers to apply for SBA 7       A second individual
                              (a) business loans using the services of that company.    signed a deferred
                              The individuals submitted fraudulent SBA loan appli-      prosecution agree-
                              cations and supporting documentation (e.g. bank           ment and was or-
                    FBI       statements, cashier’s checks, IRS documents) on be-       dered to pay
MD        BL
                   USPSIS     half of their clients. These fraudulent documents         $75,000.
                              falsely enhanced the creditworthiness of the borrow-
                              ers and made it appear that they had more money for
                              their equity injections than they actually did. To
                              date, the conspiracy has resulted in losses of over
                              $100 million to the SBA.

                                                  71
                   Jointly
State   Program                        Alleged Violation(s) Prosecuted                     Legal Action
                    with
                              The owner of an 8(a) company provided false state-        Individual pled
                              ments to the SBA by concealing his control and relat-     guilty.
                    DCIS      ed improper financial arrangements with an affiliated
MD        GC      GSA/OIG     company. He also concealed the use of over $1 mil-
                   IRS/CI     lion in personal expenses which he recorded as a
                              business expense. The affiliated company received
                              over $50 million in federal contracts.
                              A borrower provided false statements to the SBA re-       Individual pled
                   USSS
 MI       BL                  lated to the required equity injection as he obtained a   guilty.
                  DHS/ICE
                              $1.1 million loan
                              To date, a total of 18 defendants have been charged       Five individuals
                              and pled guilty in a complex scheme to defraud the        pled guilty. One
                              SBA. These defendants conspired to assist failing         individual was sen-
                              businesses which had significant outstanding/past         tenced to three
                              due loans with a bank. Lending officials organized        years’ probation
                              limited liability companies solely as nominee borrow-     and $2,000 in resti-
MO        BL        FBI       ers to funnel SBA loan proceeds back to them. This        tution. One indi-
                              was done to conceal failing loans and to cure over-       vidual was sen-
                              draft issues at the bank. The lending official(s) at      tenced to one year
                              this bank caused false statements to be made in ap-       probation. One
                              proximately $10 million in loans, approximately $7        individual was sen-
                              million of which were guaranteed by the SBA.              tenced to 24
                                                                                        months’ probation.
                              The president of a masonry company and his chief          Five companies
                              financial officer used an affiliated company as a         and the presidents
                              “front” in order to receive a $9.4 million subcontract    of two of the com-
                    NCIS
 NC       GC                  to do masonry work at a military base.                    panies involved in
                    DCIS
                                                                                        this scheme agreed
                                                                                        to a $1,873,250 civil
                                                                                        settlement.
                              After being awarded a $14 million contract, the owner     Individual indict-
                              created a construction firm to obtain two small busi-     ed.
                    NCIS      ness subcontracts on a Navy contract. The owner
 NC       GC
                    DCIS      controlled both businesses. She also provided false
                              documents to the SBA in support of her claim that
                              this business was eligible for HUBZone status.
                  NJ/Office   Four individuals applied for SBA loans claiming their     Four individuals
                     of       primary residences were damaged by Superstorm             indicted.
                  Attorney    Sandy. In fact, they were not their primary residenc-
                  General,    es.
 NJ       DL
                   DHS/
                    OIG,
                   HUD/
                    OIG




                                                 72
                  Jointly
State   Program                      Alleged Violation(s) Prosecuted                     Legal Action
                   with
                            The owner of a company claimed SDVSOB status              Individual charge in
                  VA/OIG
                            when she was not eligible to receive this status. Her     a criminal com-
 NJ       GC      GSA/OIG
                            company received over $1 million in federal con-          plaint.
                   IRS/CI
                            tracts.
                            A borrower was approved for a $734,700 disaster           The SBA discontin-
                            loan. The borrower provided conflicting information       ued additional dis-
 NY       DL       None     to SBA and could not provide sufficient documentary       bursements result-
                            proof of his losses.                                      ing in a cost avoid-
                                                                                      ance of $715,700.
                            A construction firm provided false statements to the      Civil complaint filed
                            SBA in order to receive certification as a HUBZone        against the owner
OH        GC       DCIS     company. As a result, this company received mil-          and company.
                            lions of dollars in contracts using their HUBZone
                            certification.
                            The owner of an 8(a) firm failed to disclose to the       Individual paid a
                            SBA that her company had previously participated in       civil settlement of
                            the 8(a) program in the 1980s when she applied for 8      $300,211.99.
 PA       GC        FBI
                            (a) status in 2001. Under SBA regulations, this com-
                            pany had exhausted her eligibility to participate
                            again in the 8(a) program.
                            A borrower forged signatures of his estranged wife        Individual sen-
                            and others on SBA loan documents in order to apply        tenced to three
 TX       DL       None     for two Hurricane Katrina SBA disaster loans totaling     years’ probation and
                            $167,400. The borrower misused the loan proceeds.         $34,964 in restitu-
                                                                                      tion.
                            A franchise company submitted false information to        Company paid a
 TX       BL        FBI     the SBA indicating borrowers had provided the re-         civil settlement of
                            quired equity injection to receive the loans.             $1,125,000.
                            A husband and wife obtained a $420,000 SBA-               Both individuals
                            guaranteed loan. The borrowers provided false infor-      received 12 months
                            mation related to the source of their equity injection.   and one day in pris-
                            They also secured lines of credit under different com-    on and restitution of
 TX       BL       None     pany names and did not disclose these additional          $281, 672.90. The
                            debts to the lender.                                      couple paid presen-
                                                                                      tencing restitution
                                                                                      of $150,000.

                            A company provided false information to the SBA           Individual pled
                            related to their SDVOSB status. The firm falsified its    guilty.
 TX       GC      VA/OIG    credentials, office locations, number of employees,
                            and past completed projects. The company received
                            over $1.5 million in contracts.




                                                73
                  Jointly
State   Program                       Alleged Violation(s) Prosecuted                      Legal Action
                   with
                            A company recruited a disabled veteran as a front in        Individual pled
                            order to receive federal contracts under their SDVOSB       guilty.
                            status. In fact, the disabled veteran had no financial
 TX       GC      VA/OIG
                            investment in the firm, performed no work for the
                            company, and did not exercise a controlling interest in
                            the company
                            A borrower conspired with a contractor to submit false      Individual pled
                            and inflated invoices to the SBA in support of two dis-     guilty.
 TX       DL        FBI
                            aster loans he received in the amount of $1,884,100.

                            Bank employees provided false borrower information          Bank paid a civil
                            on loan applications to meet underwriting criteria for      settlement of
 UT       BL        FBI
                            three SBA loans. Borrowers misused the loan proceeds        $212,920.
                            which benefited certain bank employees.
                            A business in a mentor/protégé agreement with a             Business paid a
                            small business took control of the small businesses’        civil settlement of
 UT       GC       None
                            ownership and government contracts. The small busi-         $1,014,000.
                            ness effectively acted as a front for this large business
                            An employee of a company with SDVOSB status con-            Employee pled
                            spired with other SDVOSB certified companies in a bid       guilty and was sen-
                            -rigging scheme. The employee received over $80,000         tenced to three
                            for his participation in this scheme. A second employ-      months in jail, two
                            ee received over $1 million for his participation in this   years of probation,
                            scheme. Value of the contracts involved in this case        and ordered to
                  DHS/OIG   was $33 million.                                            forfeit $80,000 and
                                                                                        a $5,000 fine. An-
 VA       GC      VA/OIG,
                                                                                        other employee
                  GSA/OIG
                                                                                        pled guilty and was
                                                                                        sentenced to 16
                                                                                        months in prison
                                                                                        two years super-
                                                                                        vised release and
                                                                                        ordered to forfeit
                                                                                        $1,065,103.
                            Individuals falsely represented to the government that      Individual sen-
                   NASA/    a particular security contractor was eligible for the 8     tenced to 60
                            (a) program when, in reality, the company was con-          months in jail, 24
                    OIG
                            trolled by a second security contractor. Over $31 mil-      months of super-
 VA       GC
                   DCIS     lion in 8(a) and small business set-aside contracts         vised release, a
                            were fraudulently obtained.                                 $12,500 fine and
                  DHS/OIG                                                               forfeiture of
                                                                                        $2,960,697.




                                                74
                          Jointly
State     Program                                 Alleged Violation(s) Prosecuted                       Legal Action
                           with
                                       A borrower provided false information related to per-          Individual pled
                          FDIC/        sonal information, appraisal documents and the re-             guilty.
 WA           BL
                           OIG         quired equity injection to receive a loan for $1,853,000.
                                       The prime contractor claimed small businesses would            A civil complaint
                                       perform the sub-contracting work on a multi-million            was filed against
                           DOE/
 WA           GC                       DOE contract. The small businesses were determined             the contractor.
                           OIG
                                       by SBA to be other-than-small and were identified as
                                       being affiliated with the prime contractor.
                                       A former bank president withdrew funds from ac-                Individual sen-
                                       counts of unsuspecting commercial customers and                tenced to 30 days
                                       deposited them into the accounts of another commer-            in jail and three
                           FBI         cial customer who had reached his maximum borrow-              years’ supervised
  WI          BL          FDIC/        ing limit. The president also allegedly made notations         release.
                           OIG         falsely indicating that the customers had authorized
                                       the transactions. The funds withdrawn totaled ap-
                                       proximately $250,000 including $72,000 is SBA loan
                                       funds.
                                       A borrower made false statements by providing false            Individual pled
                                       financial information related to the businesses’ profita-      guilty.
  WI          BL            FBI
                                       bility, fixed assets, and existing liabilities on a $750,000
                                       loan.
                                       A bank made false statements in order to conceal in-           Civil complaint
                                       formation that a borrower was delinquent on his bank           filed against the
 WY           BL           None
                                       debts and in financial distress. The borrower received         bank.
                                       a $2 million loan.
Legal Actions Summary Program Codes:
Business Loans (BL)
Disaster Loans (DL)
Government Contracting and Section 8(a) Business Development (GC)
Integrity Assurance (IA)
Small Business Investment Company (SBIC)

Joint-investigation Agency Acronyms:
Defense Criminal Investigative Service (DCIS)
Department of Homeland Security-Immigration and Customs Enforcement ( DHS-ICE)
Department of Homeland Security Office of Inspector General (DHS/OIG)
Department of Housing and Urban Development Office of Inspector General (HUD/OIG)
Department of Veterans Affairs Office of Inspector General (VA/OIG)
Federal Bureau of Investigation (FBI)
Federal Deposit Insurance Corporation Office of Inspector General (FDIC/OIG)
General Services Administration Office of Inspector General (GSA/OIG)
Internal Revenue Service -Criminal Investigation (IRS/CI)
National Aeronautics and Space Administration Office of Inspector General (NASA/OIG)
Naval Criminal Investigative Service (NCIS)
United States Army Criminal Investigation Division (
Army CID)
United States Department of Transportation Office of Inspector General (DOT/OIG)
United States Postal Inspection Service (USPIS)
United States Secret Service (USSS)


                                                             75
Appendix XI: External Peer Reviews

Section 5(a) of the IG Act provides the requirements           Investigations
for reporting the results of peer reviews in OIG Semi-
annual Reports to Congress. The following infor-               Section 6(e)(7) of the IG Act, Attorney General
mation is provided in accordance with these require-           Guidelines for Offices of Inspector General with Stat-
ments.                                                         utory Law Enforcement Authority, and the CIGIE
                         ***                                   Quality Standards for Investigations require exter-
Auditing                                                       nal peer reviews of OIG investigative functions be
                                                               conducted every three years. As such, the OIG will
Generally Accepted Government Auditing Standards               receive its review in August 2014, which will be
(GAGAS) issued by the Government Accountability                conducted by the US Department of the Interior,
Office (GAO) require that audit organizations per-             Office of Inspector General.
forming audits and attestation engagements in ac-                                       ***
cordance with GAGAS must have an external peer
review performed by reviewers independent of the               The OIG was not subject to a peer review during
audit organization being reviewed at least once every          this semiannual reporting period. The Department
three years. The OIG will receive its review during the        of Veteran’s Affairs (VA) OIG conducted the last
Spring 2015 reporting period.                                  peer review of the OIG, and issued its final report
                                                               December 21, 2011. The VA OIG found the system
The OIG was not subject to a peer review during this           of internal safeguards and management procedures
semiannual reporting period. The National Aero-                for the investigative function of the OIG Compliant
nautics and Space Administration (NASA) Office of              with the quality standards established by the CIGIE
Inspector General conducted the last peer review of            and the applicable Attorney General Guidelines
the OIG, and issued its final report on September 27,          (OIGs can be assessed as either Compliant or Non-
2012. The OIG received a rating of “Pass” in that re-          compliant). No recommendations were offered.
port (federal audit organizations can receive a rating
of Pass, Pass with Deficiencies, or Fail). There are no                            ***
outstanding recommendations from previous peer                 Peer Reviews Conducted
reviews of the OIG.
                                                               The OIG conducted a peer review of the General
                         ***                                   Services Administration Office of Inspector General
                                                               in May of 2013. On July 26, 2013, the OIG issued its
Peer Reviews Conducted                                         final report. The OIG found the system of internal
                                                               safeguards and management procedures for the
The OIG conducted a peer review of the Railroad                investigative function of the OIG Compliant with
Retirement Board Office of Inspector General in the            the quality standards established by the CIGIE and
Fall 2012 reporting period. On October 18, 2012, the           the applicable Attorney General Guidelines (OIGs
OIG issued its final report. The Railroad Retirement
                                                               can be assessed as either Compliant or Noncompli-
Board OIG received a rating of “Pass” in that report
                                                               ant). No recommendations were offered.
(federal audit organizations can receive a rating of
Pass, Pass with Deficiencies, or Fail).

                         ***




                                                          76
Appendix XII: Organization

The OIG is comprised of the Inspector General’s
immediate office and four divisions: Auditing, In-
vestigations, Counsel, and Management and Policy.

The Auditing Division performs and oversees
audits and reviews to promote the economical,
efficient, and effective administration of SBA pro-
grams and operations.

The Investigations Division manages a program
to detect and deter illegal and improper activities
involving SBA programs, operations, and person-
nel. The criminal investigations staff carries out a
full range of traditional law enforcement functions.
The security operations staff ensures that SBA em-
ployees and contractors have appropriate back-
ground investigations and security clearances to
achieve a high level of integrity in the Agency’s
workforce, and that loan applicants and other po-
tential program participants are of good character.

The Counsel Division provides legal and ethics
advice to all OIG components; represents the OIG
in litigation arising out of or affecting OIG opera-
tions; assists with the prosecution of criminal, civil
fraud, and administrative enforcement matters;
processes subpoenas, responds to Freedom of In-
formation and Privacy Act requests; and reviews
and comments on proposed policies, regulations,
legislation, and procedures.

The Management and Policy Division provides
business support (e.g., budget and financial man-
agement, human resources, IT, and procurement)
for the various OIG functions; coordinates prepara-
tion of the OIG’s Semiannual Report to Congress,
and other OIG-wide reports and documents; main-
tains the OIG website; and operates the OIG’s Hot-
line.

The OIG headquarters is located in Washington,
DC, and has field staff located in Atlanta, GA; Chi-
cago, IL; Dallas-Fort Worth, TX; Detroit, MI; Den-
ver, CO; Herndon, VA; Houston, TX; Kansas City,
MO; Los Angeles, CA; Miami, FL; New York, NY;
Philadelphia, PA; Tacoma, WA; and Washington,
DC.
                         ***


                                                         77
                         Make a Difference!
 To promote integrity, economy, and efficiency, we encourage you to report
     instances of fraud, waste, or mismanagement to the OIG Hotline.*


                                              Online:
         http://www.sba.gov/office-of-inspector-general/2662



                                                 Call:
                                1-800-767-0385 (Toll Free)



                                      Write or Visit:
                        U.S. Small Business Administration
                            Office of Inspector General
                              Investigations Division
                         409 Third Street, SW (5th Floor)
                              Washington, DC 20416




**In accordance with Sections 7 and 8M of the Inspector General Act, the Small Business Administration Office
of Inspector General does not disclose a complainant’s identity without consent, unless the Inspector General
determines such disclosure is unavoidable during the course of the investigation.
